<html>
<title> - ICE IN THE OZARKS: THE METHAMPHETAMINE EPIDEMIC IN ARKANSAS</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]





      ICE IN THE OZARKS: THE METHAMPHETAMINE EPIDEMIC IN ARKANSAS

=======================================================================

                                HEARING

                               before the

                   SUBCOMMITTEE ON CRIMINAL JUSTICE,
                    DRUG POLICY AND HUMAN RESOURCES

                                 of the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                               __________

                             JUNE 28, 2004

                               __________

                           Serial No. 108-245

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpo.gov/congress/house
                      http://www.house.gov/reform


                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
97-398                      WASHINGTON : 2004
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                     COMMITTEE ON GOVERNMENT REFORM

                     TOM DAVIS, Virginia, Chairman
DAN BURTON, Indiana                  HENRY A. WAXMAN, California
CHRISTOPHER SHAYS, Connecticut       TOM LANTOS, California
ILEANA ROS-LEHTINEN, Florida         MAJOR R. OWENS, New York
JOHN M. McHUGH, New York             EDOLPHUS TOWNS, New York
JOHN L. MICA, Florida                PAUL E. KANJORSKI, Pennsylvania
MARK E. SOUDER, Indiana              CAROLYN B. MALONEY, New York
STEVEN C. LaTOURETTE, Ohio           ELIJAH E. CUMMINGS, Maryland
DOUG OSE, California                 DENNIS J. KUCINICH, Ohio
RON LEWIS, Kentucky                  DANNY K. DAVIS, Illinois
JO ANN DAVIS, Virginia               JOHN F. TIERNEY, Massachusetts
TODD RUSSELL PLATTS, Pennsylvania    WM. LACY CLAY, Missouri
CHRIS CANNON, Utah                   DIANE E. WATSON, California
ADAM H. PUTNAM, Florida              STEPHEN F. LYNCH, Massachusetts
EDWARD L. SCHROCK, Virginia          CHRIS VAN HOLLEN, Maryland
JOHN J. DUNCAN, Jr., Tennessee       LINDA T. SANCHEZ, California
NATHAN DEAL, Georgia                 C.A. ``DUTCH'' RUPPERSBERGER, 
CANDICE S. MILLER, Michigan              Maryland
TIM MURPHY, Pennsylvania             ELEANOR HOLMES NORTON, District of 
MICHAEL R. TURNER, Ohio                  Columbia
JOHN R. CARTER, Texas                JIM COOPER, Tennessee
MARSHA BLACKBURN, Tennessee          BETTY McCOLLUM, Minnnesota
PATRICK J. TIBERI, Ohio                          ------
KATHERINE HARRIS, Florida            BERNARD SANDERS, Vermont 
                                         (Independent)

                    Melissa Wojciak, Staff Director
       David Marin, Deputy Staff Director/Communications Director
                      Rob Borden, Parliamentarian
                       Teresa Austin, Chief Clerk
          Phil Barnett, Minority Chief of Staff/Chief Counsel

   Subcommittee on Criminal Justice, Drug Policy and Human Resources

                   MARK E. SOUDER, Indiana, Chairman
NATHAN DEAL, Georgia                 ELIJAH E. CUMMINGS, Maryland
JOHN M. McHUGH, New York             DANNY K. DAVIS, Illinois
JOHN L. MICA, Florida                WM. LACY CLAY, Missouri
DOUG OSE, California                 LINDA T. SANCHEZ, California
JO ANN DAVIS, Virginia               C.A. ``DUTCH'' RUPPERSBERGER, 
JOHN R. CARTER, Texas                    Maryland
MARSHA BLACKBURN, Tennessee          ELEANOR HOLMES NORTON, District of 
PATRICK J. TIBERI, Ohio                  Columbia
                                     ------ ------

                               Ex Officio

TOM DAVIS, Virginia                  HENRY A. WAXMAN, California
        Nicholas Coleman, Professional Staff Member and Counsel
                           Malia Holst, Clerk


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on June 28, 2004....................................     1
Statement of:
    Bryant, William J., Assistant Special Agent in Charge, Little 
      Rock, AR, Office (New Orleans Field Division) Drug 
      Enforcement Administration.................................     8
    Counts, Larry, director, Decision Point drug treatment 
      facility...................................................   168
    Cromwell, William M., Acting U.S. Attorney, Western District 
      of Arkansas................................................    24
    Dufour, Bob, director of professional and government 
      relations, Wal-Mart Stores, Inc............................   178
    Gibbons, David, prosecuting attorney, 5th Judicial District..    76
    Gunn, Mary Ann, circuit judge, Fourth Judicial District, 
      Fourth Division............................................    98
    Hickman, Danny, sheriff, Boone County........................    73
    Hoggatt, Greg, director, Drug Free Rogers-Lowell.............   182
    Howard, J.R., executive director, Arkansas State crime lab...    61
    Hudson, David, Sebastian County Judge........................    56
    Leach, Merlin D., executive director, Center for Children & 
      Public Safety..............................................   186
    Louie, Shirley, environmental epidemiology supervisor, 
      Arkansas Department of Health..............................    68
    Macdonald, James, Federal on Scene Coordinator, Region 7, 
      U.S. Environmental Protection Agency.......................    32
    Pyle, Michael................................................   192
    Rutledge, Keith, State drug director, Office of the Governor 
      of Arkansas................................................    46
Letters, statements, etc., submitted for the record by:
    Bryant, William J., Assistant Special Agent in Charge, Little 
      Rock, AR, Office (New Orleans Field Division) Drug 
      Enforcement Administration, prepared statement of..........    12
    Counts, Larry, director, Decision Point drug treatment 
      facility, prepared statement of............................   170
    Cromwell, William M., Acting U.S. Attorney, Western District 
      of Arkansas, prepared statement of.........................    26
    Dufour, Bob, director of professional and government 
      relations, Wal-Mart Stores, Inc., prepared statement of....   180
    Gibbons, David, prosecuting attorney, 5th Judicial District, 
      prepared statement of......................................    78
    Gunn, Mary Ann, circuit judge, Fourth Judicial District, 
      Fourth Division, prepared statement of.....................   100
    Hickman, Danny, sheriff, Boone County, prepared statement of.    74
    Hoggatt, Greg, director, Drug Free Rogers-Lowell, prepared 
      statement of...............................................   184
    Howard, J.R., executive director, Arkansas State crime lab, 
      prepared statement of......................................    63
    Hudson, David, Sebastian County Judge, prepared statement of.    58
    Leach, Merlin D., executive director, Center for Children & 
      Public Safety, prepared statement of.......................   188
    Louie, Shirley, environmental epidemiology supervisor, 
      Arkansas Department of Health, prepared statement of.......    70
    Macdonald, James, Federal on Scene Coordinator, Region 7, 
      U.S. Environmental Protection Agency, prepared statement of    34
    Pyle, Michael, prepared statement of.........................   194
    Rutledge, Keith, State drug director, Office of the Governor 
      of Arkansas, prepared statement of.........................    49
    Souder, Hon. Mark E., a Representative in Congress from the 
      State of Indiana, prepared statement of....................     4

 
      ICE IN THE OZARKS: THE METHAMPHETAMINE EPIDEMIC IN ARKANSAS

                              ----------                              


                         MONDAY, JUNE 28, 2004

                  House of Representatives,
 Subcommittee on Criminal Justice, Drug Policy and 
                                   Human Resources,
                            Committee on Government Reform,
                                                   Bentonville, AR.
    The subcommittee met, pursuant to notice, at 9:30 a.m., at 
the Northwest Arkansas Community College, White Auditorium, One 
College Drive, Bentonville, AR, Hon. Mark E. Souder (chairman 
of the subcommittee) presiding.
    Present: Representatives Souder and Boozman.
    Staff present: Nicholas Coleman, professional staff member 
and counsel; and Malia Holst, clerk.
    Mr. Souder. Good morning, and thank you all for coming. 
This hearing continues our subcommittee's work on the problem 
of methamphetamine abuse, a problem that is ravaging the State 
of Arkansas and the entire Nation. I'd like to thank 
Congressman John Boozman for inviting us here to Bentonville 
and for his leadership in confronting the meth epidemic.
    In 2003, Congressman Boozman testified before our 
subcommittee about the meth problem in northwest Arkansas, and 
since then, we have frequently discussed ways to help 
communities like this one reduce drug abuse.
    Meth is one of the most powerful and dangerous drugs 
available, and it is also one of the easiest to make. It can be 
``cooked'' using common household or agricultural chemicals and 
simple cold medicines, following recipes easily available on 
the Internet. The meth here in Arkansas and in other States 
comes from two major sources of supply. First, most meth comes 
from the so-called ``superlabs'' in California and northern 
Mexico. By the end of the 1990's these super labs produced over 
70 percent of the Nation's supply of meth. These super labs are 
operated by large Mexican drug trafficking organizations that 
have used their established distribution and supply networks to 
transport meth throughout the country. According to recent news 
reports, these groups have introduced the form of meth called 
``crystal meth'' or ``ice'' to Arkansas, which is very pure and 
extremely addictive.
    The second major source of meth comes from small, local 
labs that are generally unaffiliated with major drug 
trafficking organizations. These labs have proliferated 
throughout the country, and Arkansas has been particularly hard 
hit, with one of the highest rates per capita of lab seizures 
in the country. The total amount of meth actually supplied by 
these labs is relatively small; however, the environmental 
damage and health hazard they create makes them a serious 
problem for local communities, particularly the State and local 
law enforcement agencies charged with the duty to uncover and 
clean them up. In my home State of Indiana, for example, more 
than 20 percent of the labs raided by the police were 
discovered only after they had exploded and started fires. 
Children are often found at meth labs, and have frequently 
suffered from severe health problems as a result of the 
hazardous chemicals used in drug manufacturing.
    Our hearings during the 107th Congress were mostly held in 
Washington and looked at this problem from a national 
perspective. This year, however, we have taken a different 
approach. We have instead been holding hearings in specific 
regions that have been hardest hit by meth trafficking and 
abuse. In February, we held a hearing in northeastern Indiana, 
followed by a hearing in Detroit, Michigan, where large 
quantities of meth precursor chemicals like pseudoephedrine 
were being smuggled until very recently. In August, we will 
hold a hearing in Kailua-Kona, Hawaii, where the use of crystal 
meth is growing rapidly and also takes the most money from the 
Federal Government for the meth problems.
    Everywhere we go, we hear about many of the same issues; 
the environmental damage caused by the labs; the high cost and 
long hours required for law enforcement agencies to process lab 
sites; and the heartbreaking stories of children exposed to 
drugs and chemicals and in need of emergency medical care and a 
safe place to go. We hear about how addictive and deadly this 
drug is, and how difficult it is to provide treatment and get 
meth users off drugs.
    The Bush administration, and especially its Office of 
National Drug Control Policy [ONDCP], has pushed for strong and 
effective action against meth abuse. We will need to take 
action at every level--Federal, State and local--to respond to 
this problem. Let me briefly mention three issues that need to 
be addressed.
    First, what do we need to do to reduce the supply of meth? 
In the late 1990's, the Federal Government responded to the 
meth problem both here and elsewhere with stricter laws against 
the precursor chemical trade and tougher enforcement. The 
proliferation of smaller meth labs, however, means that we 
probably will have to further restrict the ability of meth 
cooks to get precursor chemicals--especially pseudoephedrine. 
Already many States have acted to restrict sales of cold 
medicines and other pseudoephedrine sources. A major question 
Congress must address is whether to enact a national standard 
for these sales, and, if so, what form it should take?
    Second, how should we deal with environmental issues 
created in the wake of a meth lab seizure? We have to ensure 
that the toxic chemicals produced and dumped by lab operators 
are cleaned up, but these criminals rarely have enough money to 
compensate the Federal Government for those costs. If we impose 
the costs on unsuspecting land owners or landlords, however, we 
may give them a disincentive to monitor their property and 
report suspicious activity to the police. In California, for 
example, some farmers prefer to bury the remains of meth labs 
they find on their property, because if they report them, they 
will be liable for the clean-up costs. So we are having lots of 
unanticipated consequences. We will have to carefully consider 
how we assign the responsibility for this difficult and 
expensive task.
    Finally, how do we get meth addicts into treatment, and how 
do we keep young people from starting on meth in the first 
place? We can all agree that education and outreach are vital, 
but the hard part is figuring out what works best. What works 
for marijuana, ecstasy or cocaine may not work as well for 
meth.
    This hearing will address these difficult questions and 
hopefully bringus closer to some answers. Again, I thank 
Congressman Boozman for inviting us here, and for the 
assistance that he and his staff provided to our subcommittee 
in setting up this hearing. We will welcome in the first panel 
three witnesses who have joined us to discuss the Federal 
Government's response to the meth problem; Mr. William J. 
Bryant, Assistant Special Agent in Charge of the Drug 
Enforcement Administration's Office in Little Rock, AR; Mr. 
William Cromwell, Acting U.S. Attorney for the Western District 
of Arkansas; my understanding, that's his career position as 
acting district attorney second time through; and Mr. James 
MacDonald, the Federal On Scene Coordinator for the U.S. 
Environmental Protection Agency's Region 7.
    At a hearing like this, it is vitally important for us to 
hear from State and local agencies forced to fight on the 
``front lines'' against meth and other illegal drugs. We 
welcome Mr. Keith Rutledge, the Governor's State drug director; 
the Honorable David Hudson, a Sebastian County judge; Mr. J.R. 
Howard, executive director of the Arkansas State Crime Lab; 
Miss Shirley Louie, environmental epidemiology supervisor of 
the Arkansas Department of Health; Sheriff Danny Hickman of 
Boone County; and Mr. David Gibbons, prosecuting attorney for 
the 5th Judicial District.
    We also welcome five witnesses who work in the field of 
drug treatment and prevention. They're of vital importance here 
in northwest Arkansas. The Honorable Mary Ann Gunn, circuit 
judge for the Fourth Judicial District, who has worked 
extensively with the Drug Courts initiative here; Mr. Larry 
Counts, director of Decision Point Drug Treatment Facility; Mr. 
Gregg Hoggatt, director of the Drug Free Rogers-Lowell; Mr. 
Michael Pyle, a recovering methamphetamine addict; and Dr. 
Merlin D. Leach, executive director of the Center for Children 
& Public Policy. Finally, we'd also like to welcome two 
representatives of the retail and trucking industries, whose 
assistance and expertise we will need to stop the problem of 
meth production and trafficking; Mr. Bob Dufour, director of 
professional and government relations for Wal-Mart Stores, 
Inc.; and Mr. Lane Kidd, president of the Arkansas Trucking 
Association. We thank everyone for taking the time to join us 
this morning, and look forward to your testimony.
    [The prepared statement of Hon. Mark E. Souder follows:]

    [GRAPHIC] [TIFF OMITTED] T7398.001
    
    [GRAPHIC] [TIFF OMITTED] T7398.002
    
    [GRAPHIC] [TIFF OMITTED] T7398.003
    
    Mr. Souder. Now I'd like to yield to my friend and 
colleague Congressman Boozman.
    Mr. Boozman. Mr. Chairman, and staff members on the 
Subcommittee on Criminal Justice, Drug Policy and Human 
Resources, I want to welcome you to northwest Arkansas. I truly 
appreciate the committee taking the time to come to Arkansas to 
see firsthand the methamphetamine epidemic in our region. I 
would also like to welcome our witnesses. You're all on the 
front lines in the daily battle against methamphetamine in 
Arkansas. I appreciate all that you do, and I look forward to 
hearing your insightful testimony. Last, I would also like to 
recognize and thank you for coming, the many distinguished 
guests in our audience that are joining us today.
    The threat posed to our Nation by the traffic and abuse of 
meth is high and increasing. According to the National Drug 
Intelligence Center's 2004 national drug threat assessment, it 
was reported that meth is the second largest drug threat across 
the Nation according to State and local law enforcement. It is 
second only to cocaine. So although meth represents a small 
percentage of drug use in America, the repercussions of using 
meth make it the second biggest drug threat in our Nation. The 
highly addictive nature of the drug paired with the intense 
feelings of paranoia, agitation and depression cause extensive 
cases of child abuse, spousal abuse, robbery, and theft. The 
ripple effect caused by this drug is like no other.
    I took an informal poll around my district and heard 
overwhelmingly--notice I said ``informal.'' One of those words 
where I won't get rounded up by the chairman. But, anyway, when 
you visit with anyone that's related to law enforcement in a 
district, they'll tell you that over 70 percent of all crime in 
this region can be attributed to meth. We have another problem 
here in Arkansas, a technical problem, of not reporting all of 
our data to the Federal agencies. You may notice that the DEA 
statistics for meth lab seizures in Arkansas are significantly 
below the Arkansas State Crime Lab numbers. This is because we 
need to do a better job of reporting our data to the Federal 
agencies.
    If you'll notice, in the latest national drug threat 
assessment, Missouri was reported to have the highest number of 
meth lab seizures in the central States in 2003 with 1,075. 
Arkansas was listed at No. 2 with 656 seizures. These are the 
Federal statistics. However, if you compare that with the 
Arkansas State Crime Lab numbers, you'll see that Arkansas 
actually seized over 1,200 meth labs in 2003. This figure far 
exceeds Missouri's numbers. And, in fact, when you look at the 
State Crime Lab's numbers, we've experienced a 4,900 percent 
increase in meth lab seizures since 1995. That's not even 10 
years.
    In 1995, Arkansas seized 24 meth labs, and in 2004, it's 
predicted that we will seize over 1,300 labs. We must get the 
word to the Federal Government so that we can get some help.
    I want to show you this real quick. This is a HIDA map. And 
I know you can't see it back in the back, but it illustrates 
where the HIDTA areas are, the high intensity drug traffic 
areas are as far as where the resources are put. The little 
dots represent resources that have been put in place with the 
HIDTA program. As you can see, we have this huge gap from 
Louisiana through Arkansas. This is something that we want to 
look at. Is there a reason that all of the sudden we don't have 
any trafficking in this area; it's all just home cooked labs? 
Or, in realty, do we need more Federal intervention in this 
area.
    Winning back our communities takes a balanced approach. The 
DEA can help make sure our laws are upheld, but effective 
treatment and education is equally critical. We must have 
adequate alternatives for those who are caught in meth's 
dangerous grasp. I'm impressed by the effectiveness of the drug 
courts. Many addicts do not realize they need help. Drug courts 
make them accountable and keep them clean. We can fight this 
problem together with local, State, and Federal resources 
working together. We can loosen the grip methamphetamine has on 
our Nation.
    Again, I'm looking forward to hearing the testimony of our 
witnesses, and thank you to Chairman Souder and his staff for 
joining us in Northwest Arkansas for such an important hearing.
    Mr. Souder. Thank you.
    Let me do a couple of procedure matters. I ask unanimous 
consent that all Members have 5 legislative days to submit 
written statements and questions for the hearing record; that 
any answers to written questions provided by the witnesses also 
be included in the record. No objections, so ordered.
    Second, I ask in that extent that all Members present be 
permitted to participate in the hearing without objection. It 
is so ordered.
    Our first panel is composed of three representatives of the 
Federal Government. Mr. Bill Bryant of DEA; Acting U.S. 
Attorney William Cromwell; Mr. James McDonald of the DEA. It's 
our standard practice to ask witnesses to testify under oath. 
If you'll stand and raise your right hands, I'll administer the 
oath.
    [Witnesses sworn.]
    Mr. Souder. Let the record show that each of the witnesses 
has answered in the affirmative. Mr. Bryant, good to see you 
again.
    Mr. Bryant. Good to see you, Mr. Souder.
    Mr. Souder. You're recognized for 5 minutes.
    For those of you who aren't familiar with this, it should 
go yellow with 1 minute to go. We'll be a little generous, but 
want to be able to ask questions and get answers; and to do 
that, we'll be staying reasonably close as possible. Your full 
statements will be in the record. Anything else you want to 
submit will be in the record. But with three panels, I've got 
to make sure we get a wide variety.

  STATEMENT OF WILLIAM J. BRYANT, ASSISTANT SPECIAL AGENT IN 
 CHARGE, LITTLE ROCK, AR, OFFICE (NEW ORLEANS FIELD DIVISION) 
                DRUG ENFORCEMENT ADMINISTRATION

    Mr. Bryant. Good morning, Chairman Souder and Congressman 
Boozman. My name is William J. Bryant. I'm the assistant 
special agent in charge of the Drug Enforcement Administration 
in the Little Rock district office. On behalf of Administrator 
Karen Tandy and the men and women of the Drug Enforcement 
Administration, let me express my sincere appreciation for your 
ongoing support and for this hearing on Ice in the Ozarks, The 
Methamphetamine Epidemic in Arkansas.
    Before I begin my testimony this morning, Chairman Souder, 
I would like to take this opportunity to recognize you for your 
outstanding leadership in the area of drug law enforcement. As 
you know, I served as the Chief of Congressional Affairs under 
Administrator Donny Marshall and also under Administrator Asa 
Hutchinson. During my time in this position, I had the 
opportunity to work with you and your committee on issues both 
domestic and internationally. You are a true leader, and you've 
taken your position as chairman of this subcommittee very 
seriously. I want to recognize you for your outstanding work 
that benefits all law enforcement, not just Federal law 
enforcement, but you always took the extra time to see what 
State and local law enforcement is doing. And for that, I 
applaud you.
    I would also be remiss if didn't recognize Congressman 
Boozman. Upon my return to Arkansas, Congressman Boozman came 
down to Little Rock, and because he sought me out. I'd didn't 
have to seek him out. He came to Little Rock, and he wanted to 
be briefed on the methamphetamine situation in Arkansas, 
because he has a true concern for the people in the State of 
Arkansas. We had a week of discussion, and he committed his 
support to law enforcement in this community. He followed up 
with this commitment by Congressman Boozman by having this 
hearing today, and I thank you for that.
    Mr. Chairman, as I mention in my written statement I 
submitted for the record, the No. 1 problem in Arkansas is 
methamphetamine. The methamphetamine problemin Arkansas is a 
twofold problem. It's very similar to your situation in your 
home State of Indiana. The twofold problems are small toxic 
labs and Mexican drug trafficking organizations.
    Small toxic labs are local independent operators who 
produce one to two ounce quantities of methamphetamine. 
Locally, over 90 percent of these small toxic labs operate and 
produce methamphetamine for personal use and local 
distribution. Unfortunately, methamphetamine is a simple drug 
to produce. The ingredients are not only readily available but 
also inexpensive. Items such as cold medicine, such as 
ephedrine and pseudoephedrine, lithium batteries, camp fuel, 
match striker plates, starter fluid, and iodine crystals are 
some of the items needed to manufacture methamphetamine. 
Unfortunately, year after year the small toxic labs seizures 
continue to increase in Arkansas.
    According to statistics from the Arkansas State Crime Lab, 
a total of 16 clandestine laboratories were seized in 1993 for 
a total of 1,208 seizures in 2003. So far in 2004, we are on a 
pace to exceed the 2,000 lab seizure statistics.
    Meth labs create a environmental hazard with enormous 
clean-up costs. The DEA assists State and local law enforcement 
agencies with the clean up of meth labs for funding supplied by 
Congress. In 2002, the DEA assisted Arkansas law enforcement 
agencies in 545 lab clean-ups which totaled $1.8 million with 
an average cost of $3,300 per lab. In 2003, DEA was able to 
negotiate a new contract with hazardous waste and disposal 
companies to reduce the cost of clean-up. In 2003, DEA in 
Arkansas assisted law enforcement with 810 clandestine lab 
clean ups for a total of $1.3 million with an average cost of 
$1,725 per lab. Due to the increase in the number of labs, DEA 
opened a second response site for the hazardous waste contract 
in Fayetteville, Arkansas, in January 2004. This resulted in a 
cost savings for State and local law enforcement agencies on 
overtime costs.
    These laboratory operators known as cooks typically have no 
chemical background or training, which leads to these 
laboratories resulting in fires and explosions. In 2001, the 
State of Arkansas EPIC stats revealed we had 15 fires and 
explosions. Unfortunately, it continued to increase. In 2002, 
we had a report of 20 fires and explosions and then 28 fires 
and explosions in 2003.
    DEA has taken the lead in the law enforcement area of 
clandestine laboratory training. I'm glad to report DEA has 
trained over a total of 451 State and local law enforcement 
officers in Arkansas with clandestine laboratory training, 
which includes the State and local certification school, site 
safety officer school and tactical training. No only do these 
meth labs pose a danger to the law enforcement community, they 
pose a danger to the children of our State. In 2001, EPIC 
statistics showed 121 children were affected here in the State 
of Arkansas. Unfortunately, again this number increased in 2002 
reporting 207 children and in 2003, 219 children.
    The secondfold problems are Mexican drug trafficking 
organizations here in Arkansas. We have definitely seen an 
increase in the Mexican drug traffic organizations in Arkansas, 
primarily involving the distribution of methamphetamines. DEA 
investigations have found Mexican drug traffic organizations 
transport multi-pound quantities of methamphetamine to the 
State for distribution. DEA intelligence in Arkansas indicates 
that some of these organizations are capable of distributing 20 
pounds or more of methamphetamine in a 1-month timeframe.
    I thought the name of this hearing was very appropriate, 
Ice in the Ozarks, due to the fact that this past 12 months DEA 
has observed a significant amount of methamphetamine ``ice'' 
being distributed in the State of Arkansas by methamphetamine 
drug trafficking organizations. As you know, ice is a 
colorless, odorless form of d-methamphetamine. It resembles 
glass fragments or shiny blue-white ``rocks'' of various sizes. 
Ice typically has a high purity level, particularly if smoked 
using a glass pipe. Ice is also compared to crack cocaine. 
Crack cocaineabusers experience a high of about 20 to 30 
minutes, while ice may last 12 hours or more.
    I've noted several significant investigations in my written 
statement that outlines a significant amount of methamphetamine 
and methamphetamine ice being seized in our State. DEA has 
joined forces with our State and local partners to address 
methamphetamine-related trends from large traffic organizations 
down to small time producer operating out of their homes. 
Placing emphasis on DEA priority target programs, eliminating 
small toxic labs, combining Federal regulations with local 
initiatives to reduce the availability of pseudoephedrine in 
the illicit market and enforcing more chemical controls on 
meth.
    In conclusion, the seriousness of the problem resulting 
from methamphetamine threat cannot be overstated. Perhaps more 
than any other drug, methamphetamine puts all of us, users and 
nonusers alike, at risk. The innocence of children, the 
fortitude of law enforcement and the pristine state of our 
ecosystem are not immune to meth's dangers. As a single mission 
agency, DEA will continue to devote its resources to identify, 
investigate, and dismantle the organizations responsible for 
the spread of meth across Arkansas and our country.
    Thank you again for the opportunity to testify before the 
subcommittee, and I will be happy to answer questions at the 
appropriate time. Thank you.
    [The prepared statement of Mr. Bryant follows:]

    [GRAPHIC] [TIFF OMITTED] T7398.004
    
    [GRAPHIC] [TIFF OMITTED] T7398.005
    
    [GRAPHIC] [TIFF OMITTED] T7398.006
    
    [GRAPHIC] [TIFF OMITTED] T7398.007
    
    [GRAPHIC] [TIFF OMITTED] T7398.008
    
    [GRAPHIC] [TIFF OMITTED] T7398.009
    
    [GRAPHIC] [TIFF OMITTED] T7398.010
    
    [GRAPHIC] [TIFF OMITTED] T7398.011
    
    [GRAPHIC] [TIFF OMITTED] T7398.012
    
    [GRAPHIC] [TIFF OMITTED] T7398.013
    
    [GRAPHIC] [TIFF OMITTED] T7398.014
    
    [GRAPHIC] [TIFF OMITTED] T7398.015
    
    Mr. Souder. As you can see, we have no yellow. You can tell 
you've worked in Washington a little bit because you had to 
lose a Southern accent to get that much in, in 5 minutes.
    Mr. Cromwell.

STATEMENT OF WILLIAM M. CROMWELL, ACTING U.S. ATTORNEY, WESTERN 
                      DISTRICT OF ARKANSAS

    Mr. Cromwell. I'll try to get us back on schedule. Chairman 
Souder, Congressman Boozman, members of the committee staff, 
thank you on behalf of the Federal law enforcement presence in 
the Western District of Arkansas for convening this meeting, 
for calling, I hope, the public's attention to this problem. 
And it definitely is a problem. I believe you'll hear from 
every level of law enforcement, whether it be a police officer 
on the city beat, the deputy sheriff in the county, Federal law 
enforcement from DEA or other agencies, that methamphetamine 
and ice definitely cause a significant hazard for not only 
life, but economic hazard for the well-being of the United 
States.
    The resources that are required to be spent by all levels 
of law enforcement combating the problem are significant and 
could be used in other areas. And I applaud the efforts of the 
drug courts and other avenues of trying to treat the problem as 
opposed to incarceration. I think both avenues deserve 
exploration.
    This problem has gone on in our district for a number of 
years. In August, I will be in my 17th year with the U.S. 
Attorney's office, and the problem has grown exponentially 
throughout my tenure there. And it's one that even though 
resources are being used at every level, we have not yet found 
the solution. And as Mr. Bryant said, we have two primary 
sources of production for distribution of that product in our 
district.
    One, are the local cooks who definitely pose a problem, as 
Mr. Bryant said, not only to those around them but to first 
responders, too. Law enforcement, indeed post-September 11, 
have grown together and oftentimes the first responders will be 
the first at the scene of a fire or explosion, and they're 
exposed, perhaps not knowingly, to chemicals and other 
situations which this drug brings with it. In addition to the 
hazards posed to the children, the first responders and police, 
of course, we've already talked about the costs in terms of 
addiction, which you will hear about later on.
    I want to emphasize one case in my remarks deals with a 
case that started on the streets of Decatur, Arkansas, with a 
traffic stop. And a police officer made a felony arrest for an 
individual who was in possession of drug paraphernalia. That 
can be as small as a marijuana bong. But he had information 
which led to a ring which was producing methamphetamine in 
California. It was determined through investigation that 
approximately 100 pounds of methamphetamine and ice had been 
transported by this one individual from California to the 
streets of northwest Arkansas.
    This was a collaborative effort between the DEA, many law 
enforcement areas of concern here locally, Benton County, 
Washington County, but the impact of it was they were working 
together. They were sharing information. And what went from a 
very minor State arrest, led to a very large seizure in terms 
of quantities of methamphetamine, money, weapons, including 
automatic weapons, and the arrest of an individual who was 
connected to a large traffic ring in California. Although that 
is a significant case in our district, it was not the final 
case. This is an ongoing fight.
    And as Mr. Bryant can attest, we just recently had another 
case which led to the arrest of 12 individuals who are now in 
custody who were, again, importing multi-pound quantities of 
methamphetamine from California to Arkansas, and specifically 
to northwest Arkansas. And the States that we primarily have to 
deal with in the importation of the drug, California and Texas, 
both share one thing in common, and that's the boundary of 
Mexico. And, obviously, law enforcement of the U.S. variety 
cannot reach into Mexico, we have to be effective here. And I 
want emphasize to you that I think the OCDETF program has a 
significant impact in bringing State and local law enforcement 
to the Federal table to work together.
    Mr. Bryant has a resident agency in Fayetteville, Arkansas, 
just minutes down the highway from here. But it's staffed in 
large part by State and local officers who are part of the 
solution in bringing the manpower that's necessary to fight the 
problem. And so I would like to emphasize that I think the 
impact and the benefit of the OCDETF program as it works here 
in northwest Arkansas.
    And as you said, my written remarks are part of the record, 
and I will save time and be ready for questions. Thank you.
    Mr. Souder. Thank you very much.
    [The prepared statement of Mr. Cromwell follows:]

    [GRAPHIC] [TIFF OMITTED] T7398.016
    
    [GRAPHIC] [TIFF OMITTED] T7398.017
    
    [GRAPHIC] [TIFF OMITTED] T7398.018
    
    [GRAPHIC] [TIFF OMITTED] T7398.019
    
    [GRAPHIC] [TIFF OMITTED] T7398.020
    
    [GRAPHIC] [TIFF OMITTED] T7398.021
    
    Mr. Souder. Mr. MacDonald.

  STATEMENT OF JAMES MACDONALD, FEDERAL ON SCENE COORDINATOR, 
         REGION 7, U.S. ENVIRONMENTAL PROTECTION AGENCY

    Mr. MacDonald. Good morning. I'm Jim MacDonald. I'm an On-
Scene Coordinator with EPA Region 7. Region 7 covers the States 
of Missouri, Kansas, Nebraska and Iowa. The written testimony 
submitted is more of a national perspective on the EPA 
activities in general, but I would like to just talk a little 
bit about EPA Region 7 activities that we've done here in the 
midwest.
    In the mid 1990's, we started getting quite a lot of calls 
from people in different situations associated with 
methamphetamine. They would start to say, ``My child was 
crossing this neighborhood resident's yard, and we've noticed 
them dumping some chemicals. I think it's a drug bust happened. 
Could you tell me if it's safe for my kids to cross this 
yard?'' Or, ``I just rented an apartment, said there was a drug 
bust occurred here previously. Is it safe for my children to 
live in this particular residence?'' we started getting enough 
of these that we started to get more involved in this 
situation.
    Methamphetamine is different from the other drugs in that 
it involves chemicals and labs. The other chemicals in terms of 
the drug situation, we have not been involved. But 
methamphetamine pulled us in because of the chemicals.
    In the late 1990's, we started a work group with our 
counterparts in the States. Our counterparts in Missouri, just 
like the Department of Natural Resources, the Iowa Department 
of Natural Resources, Nebraska Department of Environmental 
Quality, and the Kansas Department of Health and Environment. 
We started a work group with our Missouri Department of Natural 
Resources on the methamphetamine situation to see what our 
involvement should be, what their involvement should be. And 
both DEA was a part of this and the highway patrol. And we 
started looking at ways that we could be actively involved.
    To the EPA, that became quite evident that training needed 
to be done for first responders. Not just the fire departments 
that we'd normally been involved with, but for law enforcement, 
because their entrance into these labs for a person with 
protective equipment. We also realized that we needed to get 
some samples from residuals of these drug busts, so we did a 
grant to the Missouri Department of Health, and we went out and 
sampled over 70 different residences that had drug busts, some 
immediately after drug busts, some days after, some weeks 
after, months after. Homes, trailers, apartments, all sorts of 
places that these drug busts had occurred for methamphetamine.
    We submitted all this data. These were wipe samples, air 
samples from sewer cannisters, built-in pumps, soil samples, 
water samples, to the Missouri Department of Health, tried to 
develop some standards that we might go for clean up. 
Typically, EPA works with our risk assessment folks, our health 
folks, to get these standards for us to do our clean up. For 
instance, the dioxin clean ups, one part per billion lead and 
mercury, all have standards developed by the health folks that 
we can go in and get clean ups.
    We submitted these analysis to the Missouri Department of 
Health, and they came up with a booklet Cleaning Up Former Meth 
Lab Guidelines. We couldn't find anything specifically. You 
know, which chemicals? These are household chemicals, as was 
stated previously, that you can go out and buy at different 
stores. You might have some industrial ammonia, but most of 
them you can purchase yourself readily.
    So Missouri developed the guidelines, Kansas Department of 
Health used that and developed some guidelines also for clean 
up. There's still no national standards for clean up of meth, 
but we're still looking and still possibly doing some more 
sampling in terms of these residuals.
    On the training issues, EPA and Region 7 has always been 
has doing its HAZWOPER training, 40 hours HAZWOPER, based on 
the OSHA 1910,120. So anybody involved in emergency situations, 
hazardous materials needs to take this 40-hour training. We 
tailored it to law enforcement to bring law enforcement with 
the ability now to use first protective equipment. We also 
developed a 16-hour HAZCAT, hazard categorization, for 
methamphetamine so that the fire departments and other folks 
would be more aware of what chemicals associated with the meth 
labs.
    In Missouri they decided to develop collection stations 
scattered around the State of Missouri where the law 
enforcement could bring the chemicals to the collection 
station, which was usually fire departments, would do a waste 
minimization and neutralize, clean, whatever, and then reduce 
the amount of waste necessary for disposal. So in training 
those folks in terms of how to do this.
    The third thing we were involved with was a $2 million 
grant that is facilitated by Senator Bond that went through our 
WICKER program which I am the project officer for, was given to 
the State of Missouri. For 5 years, approximately 400,000 per 
year to help not only with collection stations but equipment, 
and salaries associated with that.
    As I stated we have submitted the written testimony, but 
I'll be glad to answer any questions that you have.
    [The prepared statement of Mr. MacDonald follows:]

    [GRAPHIC] [TIFF OMITTED] T7398.022
    
    [GRAPHIC] [TIFF OMITTED] T7398.023
    
    [GRAPHIC] [TIFF OMITTED] T7398.024
    
    Mr. Souder. I thank you each for your testimony. Let me 
first see if I can get a little bit more specific about 
Arkansas and where the different types are. We were handling 
questions before the hearing started describing what we saw in 
other areas, and I want to see if this is true for Arkansas. 
And, Mr. Bryant, maybe you can kind of do an overview.
    Would you say that the 70/30 Mexican drug trafficking 
versus small lab holds here in Arkansas, or is the percentage 
coming from small labs a little higher?
    Mr. Bryant. I would say it's comparatively the same, yes, 
sir.
    Mr. Souder. And then would the pattern of where the Mexican 
drug trafficking organizations distribute be different? In 
other words, is meth in Little Rock?
    Mr. Bryant. Yes, sir.
    Mr. Souder. More like 90 percent from the Mexican drug 
trafficking organizations than in Fayetteville, versus, say, 
the northern regions or the more mountainous regions or more 
rural regions.
    Mr. Bryant. I think right now, Congressman Souder, that 
northwest Arkansas, most of our investigations are on the 
Mexican drug trafficking organizations as compared to Little 
Rock. So we have a larger population that we work on up here in 
northwest Arkansas as far as Mexican drug trafficking 
organizations. All our significant investigations have been 
focused mostly in Benton and Washington County. Where in Little 
Rock what you also see is we'll have regular methamphetamine 
distributors, the white males, or whatever, their source will 
be in California, and they'll travel out to California to hook 
up with a source and supply in California, the Mexican drug 
trafficking organizations, and then transport the meth back to 
Little Rock.
    But what we see here in this section of Arkansas is most of 
our significant cases have been against Hispanics involved in 
these Mexican drug trafficking organizations that live in this 
area.
    Mr. Souder. Are both aspects of the meth problems, both the 
Mexican drug organizations and the smaller labs, concentrated 
in northwest Arkansas as opposed to the rest of the State?
    Mr. Bryant. No, sir. Unfortunately, northwest Arkansas does 
have its fair share of the small toxic labs. We also have a 
tremendous amount in, say, for example, Little Rock. Little 
Rock Police Department actually had its own clandestine lab 
group to address the issues. And I think most of our lab 
seizures, small toxic labs are seized in like the Pulaski 
County, Saline County area surrounding Little Rock. Southern 
Arkansas, we do have some small pocket labs, but I would say 
for like Little Rock all the way north between to like 
Jonesboro and other parts of the northeast part of the State we 
also have a tremendous small toxic lab problem.
    Mr. Souder. From your perspective, what would be the 
difference in the northern part of Arkansas, Missouri area from 
southern Arkansas and into Louisiana?
    Mr. Bryant. What we are seeing, we're seeing a trend coming 
down south. You're starting to see Louisiana and Mississippi 
and Tennessee develop their own meth problems which are a 
little bit below ours but continue to rise. When we first saw 
this meth problems--I've been stationed in Arkansas from 1991 
to 1999, saw it slowly start in Missouri, eased its way down to 
northern Arkansas, and since that time period, it's slowly 
moved throughout the State. It's just been more time period up 
in the northern part of the State where they're used to 
manufacturing meth.
    Mr. Souder. We were in New Orleans just a few weeks ago, 
and their DEA says it was coming into New Orleans, and also 
that the HIDTA had always been located in the southern parts of 
trafficking regions, but they were seeing a fair amount going 
through Louisiana in the northern part. I'm not sure what 
interstate that is that it was going through, and that it'd 
stop off.
    Mr. Bryant. I think it's Interstate 20 and Interstate 10 
also.
    Mr. Souder. And it'd come back. And they thought the center 
was in Atlanta bouncing back to the south. Do you see any of 
that in Arkansas and Louisiana and Mississippi or southern 
Arkansas, bounce back from Atlanta?
    Mr. Bryant. What we're seeing a lot of in the State of 
Arkansas, we're a relatively small State, and we have three 
major interstate systems. We have Interstate 40, we have 
Interstate I-30 coming out of Texas, and we also have 
Interstate 55 which runs off I-40 near Memphis up through the 
State of Arkansas to Illinois. So a lot of the State police do 
these highway interdiction stops, and we're seeing a lot of 
loads where the people cooperate, and we'll do a controlled 
delivery. We're taking a lot to Atlanta, we're taking a lot to 
Chicago, and we're taking a lot to North Carolina is where a 
majority of these loads seem to be going. A large load of 
methamphetamine from 15 to 25 pounds of methamphetamine.
    Mr. Souder. Now, you had in your written testimony that one 
of your big busts came out of Tijuana. Has that been a pattern 
over on the west side with these super labs in the Mexican west 
side in the California, or are you seeing any out of McAllen 
and down across from Corpus?
    Mr. Bryant. The majority of our cases have come from 
California and also just across the border in Mexico in 
Tijuana. A lot of them are sources of supplies that we see are 
Hispanic from Mexico residing in California.
    Mr. Souder. Why doesn't it come up from the southeast Texas 
portion? Why way over a couple of thousand miles west?
    Mr. Bryant. It just seems like maybe the influx of the 
Hispanic population we have here in northwest Arkansas, may be 
relatives or friends from that area of the country is the only 
thing I can explain.
    Mr. Souder. In Indiana, we were trying to figure out, and 
apparently DEA is working on a case from a particular family 
because we're seeing Yakima and the Tri-Cities areas of 
Washington State, Indiana, and Winette, Georgia, and then 
learned that there was a migrant pattern of I think it was 
tomatoes actually, that was working through that zone because 
it made no sense that we were getting things from Yakima, 
coming from Tijuana to Yakima and across because they were 
adding double the mileage route. Is DEA looking more directly? 
I know Ms. Tandy has said, ``Let's get to the bottom of the 
organization.'' I'm trying to figure out the trucking routes 
and stuff they have, because, clearly, it's not a logical 
``What's the closest point?'' There's got to be some other kind 
of networking trafficking pattern of that.
    Mr. Bryant. Well, Arkansas is a State has a lot of farms, 
migrant worker situations over the State, but the seizure we're 
making are vehicles equipped with hidden traps where they've 
put it in gas tanks or they have hydraulic hidden compartments. 
And the organizations are using those to transport the 
methamphetamine from California to Arkansas. We're not charting 
any, like, 18-wheelers with cover loads of lettuce and 
tomatoes. What we're seeing a majority of are regular type 
passenger vehicles within hidden compartments.
    Mr. Souder. Congressman Boozman.
    Mr. Boozman. As you've alluded to, we have all these 
interstates,I-30, I-40, I-55, 71, the north and the south. And 
yet--I've got to use this. I carried it all the way from 
Washington. But when you look at the map, as far as the high 
intensity drug trafficking areas, the resources are lacking, 
and I'll show the chairman in a second--literally from the 
west, Fort Smith, through almost half of Tennessee, there are 
no resources. There are no resources north and south.
    Again, we probably have as much truck traffic, because 
we've got so many trucking firms in the region, which, again, 
this is associated with truck traffick. It just seems like we 
should have some resources concentrated someplace in that area. 
I've heard reports from some of my sheriffs that they're so 
busy dealing with their own problems, the fact that they're 
understaffed and under resourced just dealing with the problems 
in the county, that they really have no interest in trying to 
help with anything passing through there.
    Can you comment on those kind of things.
    Mr. Bryant. Yes, sir. I'm glad you brought it you up. We do 
have a working group now of chiefs and sheriffs in the State 
that, as you know, in 2002, Arkansas tried to get a HIDTA here 
in Arkansas itself. Unfortunately, no new funding was 
available, and what we've done now is we have a working group 
here in Benton and Washington County composed of chiefs and 
sheriffs and also down in Pulaski County and near Jefferson 
County in the Little Rock area, but they've formed a working 
group to form a HIDTA commission to join another existing HIDTA 
so we can get some of those resources.
    As we talked when I briefed you on the methamphetamine 
situation, we're coming to Members of Congress here in the 
State of Arkansas for your support, or we can join possibly an 
existing HIDTA, maybe the Gulf Coast HIDTA down in New Orleans 
to be able to get some of the funding to be able to address 
these Mexican drug trafficking organizations in Arkansas.
    Mr. Boozman. Is it possible that we are under reporting 
this type of activity as we are the meth labs in the sense, 
again, that we're putting so few resources--I know that you-all 
are doing a tremendous job, but the local folks are putting so 
few resources that they really--again, because of their funding 
problems, just don't want to deal with it.
    Mr. Bryant. It's very difficult funding a difficult problem 
here in the State of Arkansas. I know the State police are like 
a hundred troopers down themself. What we try to do is, 
Arkansas has no State wire tap law, so if any Title 3 
intercepts take place, it's going to be up to the DEA to do 
that. It's a very effective tool to attack these Mexican 
trafficking organizations, and we work closely with Mr. 
Cromwell's office to be able to do that, but the sheriffs and 
local police do not have the resources or funding available, 
even if they had the law to be able to pursue this Title 3 
capability.
    Mr. Boozman. Mr. Cromwell, also, Missouri, I believe, has a 
law, a reporting law, as far as when they seize a lab, that by 
State law they have to report it. Do we need to change anything 
in Arkansas? I know both of you are working very hard to try 
and get the labs that our cities and such reported. Do we need 
to do anything different legislatively at the State level or 
the Federal level?
    Mr. Bryant. Just so you know, DEA has kind of established a 
new program for us to better track this. I've assigned 
personnel to contact these State and local agencies when they 
do seize a clandestine laboratory for them to complete the EPIC 
form 143, send it to us. That way, we make the checks and 
balances to see that it is done, and then we forward those on 
to EPIC.
    Next week, we are going to meet with Mr. Rutledge in his 
office, and the ACIC, maybe we can start doing this 
electronically by computer with a current system called the 
Justice Exchange Computer System here in Arkansas. But a lot of 
sheriffs office use them, so we want to see if we can connect 
that with EPIC to be able to do this electronically to make 
sure we're capturing all this data.
    Mr. Cromwell. I know the DEA does an excellent job in 
tracking their statistics, and I feel very confident that 
they're gathering all the information and data that you can put 
into the system. As far as whether there needs to be a State 
law fixed at that level, I would defer that to somebody close 
to that level.
    Mr. Boozman. Very good. Thank you-all so much.
    Mr. Souder. Mr. Bryant, we're going to be meeting, I think, 
in the morning over in El Paso, and we've had this constant 
discussion about the reporting. Is it your stance that almost 
every State is underreporting?
    Mr. Bryant. Yes, sir. As you know, it's up to the local and 
State agencies to do it themselves. It's not DEA's 
responsibility, but in this State we work very close with our 
State and local counterparts. But we've got to think of a 
better system to gather this information. Because right now 
there's no check and balance system for us to make sure that 
all the States are reporting this.
    Mr. Souder. Let me ask a question of Mr. Cromwell. One of 
the challenges we have, and I know this has been true in 
Indiana, as we put the DEA in, is that many State laws either 
you can't extend to Arkansas that's not a wire tap law that the 
State uses, or increasingly we're federalizing some of the 
cases. Are you Federalizing cases that if they have similar 
laws in the State that they could utilize, you wouldn't 
Federalize.
    Mr. Cromwell. No, sir. The investigative technique of the 
Title 3 relief is the only instance in which I would see a case 
being brought to our office that wouldn't normally fit our 
guidelines. And, normally, we're looking at quantity and multi-
state connections and money laundering aspects, and as a 
result, I feel the State drug laws are very adequate to 
prosecute individuals. And we have an excellent, excellent 
relationship, I believe, with our State counterparts in working 
with them if they believe a case has connections outside their 
jurisdiction. They're very good to bring those cases to us so 
we can allow the DEA to work across State lines. But I think 
our State drug enforcement laws are very adequate.
    Mr. Souder. Do you see any growth in the Federal court 
pressure on meth.
    Mr. Cromwell. Absolutely. Yes, sir.
    Mr. Souder. What are your staffing situations?
    Mr. Cromwell. Our most recent additions to staff were for 
gun initiative projects, safe neighborhoods, and for an anti-
terrorism slot. And those both were filled 2 years ago. So as 
far as even though the methamphetamine problem has grown, 
manpower has not gone along with it.
    Mr. Souder. So do you have more of a backlog or do you not 
take certain cases? How are you dealing with that?
    Mr. Cromwell. No, sir we have not raised our guidelines on 
the quality of cases we're taking. I'm just having more 
assistants who do other types of criminal work being assigned 
to drug cases.
    Mr. Souder. Let me ask, Mr. MacDonald, are you primarily 
working right now in Missouri, or you're working the whole 
region? But where you have the most experience is in Missouri?
    Mr. MacDonald. Yes. That's true.
    Mr. Souder. Is Arkansas moving similar in guidelines that 
you've mentioned for clean up with Kansas and Missouri?
    Mr. MacDonald. I really don't know.
    Mr. Souder. OK. We'll ask that question later. When you 
look from an EPA standpoint, have you seen any where you have 
these concentrated areas of labs in northwest Arkansas, 
southern Missouri, places in Kansas, have you seen this impact 
water quality? I mean, is it more a very localized ``I'm 
worried about the house I'm in,'' ``I'm worried about the 
yard''. Have you seen any dangers hitting aquifers yet?
    Mr. MacDonald. No, we have not. Most of the ones we deal 
with are the smaller labs. And, yes, there has been some 
dumping, and we've sampled, we've tracked it, and there's some, 
of course, biodegradation going on. We haven't seen any 
significant impacts, you know, overall to the environment. 
There are concerns about any residuals inside the houses, and 
that seems to be the primary concern for the child endangerment 
issues. But right now, they're following the guidelines with 
the States with the cleaning process, removing porous 
materials, filters and things like that. That should take care 
of the problem. Again, we're dealing with the smaller labs, not 
like in California that we're dealing with the large labs.
    Mr. Souder. So, if we give adequate funding to clean up and 
stay on top of the labs, are we making people more aware? I'm 
used to being down in Columbia, and you can see flying 
overhead, the Amazon basin, you can see the chemicals going 
into the river from all the cocaine labs and that type of 
thing. So even in the fairly intense small lab zone, as long as 
we tackle them individually and implement the right procedures, 
it's not pouring into any of the sink river basins or anything.
    Mr. MacDonald. We're not seeing that. We've been working 
with the forest services, too, as they're picking up some labs 
there, and we're trying to track those. But we have not seen 
any what I would consider major environmental problems from 
this. Again, we're dealing with what we consider household 
chemicalsused improperly, stored improperly, 
disposedimproperly. But, again, you know, small cases.
    Mr. Souder. There's a little bit of this in California, but 
even in California with the super labs, they aren't 
concentrated together like what we see in Columbia where 
there's much of a danger.
    And I want to say one thing for the record that when we're 
trying to figure out how we allocate funds and move through, 
one of Congressman Boozman's challenges as he argues for 
Arkansas is every place has different kinds of drug problems, 
and it's a big battle and the matter of limited budgets trying 
to figure out how to do it.
    For example, in El Paso, we did their hearing there, the 
local doesn't even pick up anybody, hold anybody if they have 
under 200 pounds of marijuana, and DEA testified 500 pounds. We 
are so overwhelmed along the southwest border that unless we 
can seal off to a better degree the southwest border from the 
crisis of terrorism, the rest of the country is extremely 
vulnerable. And the amounts and the quantities we're dealing 
with down there, at each stop off point along the Interstate, 
they're dumping more out. And so the degree we can get the 
bigger whole semi-loads down at the border, and then often 
they'll come to a regional distribution center, like Atlanta, 
and it will bounce back into the Gulf Coast HIDTA.
    So even in our HIDTA's, we're trying to figure out, OK--
which is the what part we're dealing with with the legislative 
bill, is even if you have a HIDRA, most of the HIDTA's dollars 
should go to the southwest border where the things are biggest, 
and then the next group of HIDTA's, and then the question comes 
is where are the next HIDTA's? So one possibility would either 
be to hook up with the plainstates HIDTA or the Gulf Coast 
HIDTA. They don't get as much money as the others, but it gets 
you into the sharing networks of information networks of what 
are similar trafficking patterns. Are you a pass-through State, 
are you a central distribution point, like Atlanta, which 
then--it's still extraordinary to me, the test ones that we've 
got, that they go to Atlanta, then they come back almost all 
the way, but, hey, that's the way trucking companies work, 
that's the way distribution centers work, it makes sense that 
the larger drug trafficking organizations work that way, too.
    Do you have any further questions.
    Mr. Boozman. No. I just want to thank you-all again for 
your efforts. I've gotten to work with Mr. Bryant and Mr. 
Cromwell some, and they're doing a tremendous job in the 
interim capacity, and I really do appreciate that. And I have 
not gotten to work with Mr. MacDonald as much, but, again, I 
know all of you-all are really fighting a battle.
    One of the frustrations I see, as far as what Mr. Souder 
was alluding to was that it seems like with drugs, you do a 
good job, and you chase it off to a surrounding State or 
surrounding county or whatever. And something I would like to 
see, perhaps at some time, is maybe some sort of a drug task 
force that, you know, if you have the high intensity drug plan 
set up, they do a good job. They shut it off there.
    Meth's a little different than some of these other drugs, 
because it's not like it's coming from Columbia or necessarily 
from Mexico, it's something that could be made anyplace. And so 
as a result of that, what I would like to see, is perhaps some 
sort of a situation where we have a mobile task force that, you 
know, went to an area chased it out of there and then maybe 
followed it as it went to another area.
    But I do appreciate you-all, and appreciate your efforts.
    Mr. Cromwell. Thank you.
    Mr. Souder. One of the things we're trying in Congress is 
Ose has a bill, and what's happening in the appropriation 
process, because there isn't a systematic way to deal with 
meth, individual members have been getting in about task forces 
and things, like in Missouri, and we've got to figure out how 
to coordinate this so that they can get interrelated, and that 
there's a separate way to deal with meth by Congress. I have a 
few followup questions I needed to ask. One for Mr. MacDonald 
on the EPA.
    Do you know, has EPA ever taken legal action against a land 
owner or a landlord for damage.
    Mr. MacDonald. No, sir, not that I know of. We've been 
called in to do some sentencing enhancements dealing with the 
Clean Water Act and RCRA. On two occasions I've involved with 
that. You know, they kind of fit in with guns and child 
endangerment and then the environmental enhancements.
    Mr. Souder. In Missouri, those cases?
    Mr. MacDonald. One was in Iowa and one was in Kansas.
    Mr. Souder. Can you get us some information on that for the 
record?
    Mr. MacDonald. Sure.
    Mr. Souder. Also, the guidelines to Missouri where you said 
Kansas was based off Missouri? If we can insert that into the 
record since you referred to that, it would be helpful.
    Mr. MacDonald. Yes, sir.
    Mr. Souder. In the enhancements, were those against land 
owners or were those against the actual cookers?
    Mr. MacDonald. Against the cookers.
    Mr. Souder. OK. And we talked a little bit about this, and 
we'll followup this more on the precursor restrictions on the 
regulations. Oklahoma has the toughest law in the country, and 
I wondered if Mr. Bryant and maybe Mr. Cromwell could discuss a 
little bit that Oklahoma law and what impact that's had on 
Arkansas and whether you think that's the way we ought to be 
looking at controlling pseudoephedrine.
    Mr. Bryant. As far as the Oklahoma State law, I can give 
you a thumbnail sketch of my knowledge of it. But, basically, 
it requires to make pseudoephedrine a Schedule 5 controlled 
substance. It's required to be sold in a pharmacy, a person has 
to present a driver's license and sign a written log, or the 
store has to keep receipts that they've sold that 
pseudoephedrine. They let them sell gel caps without a 
restriction.
    Basically, from the news reports I've seen out of Oklahoma, 
the first month it was enacted, it was like a 29 percent 
reduction in the lab seizures in the State of Oklahoma. What 
we're seeing DEA intelligence and from our sources is that 
we're having a lot of the methamphetamine laboratory operators, 
they're coming over to Arkansas to get their pseudo because 
it's a less stringent law. So we definitely need to look at 
that situation.
    I briefed some State legislators here in Arkansas, but we 
really need something nationwide to address this issue. Because 
if we don't do it nationwide, what you're going to find is the 
traffic's going to go to the bordering States who do not have 
the laws to secure their pseudoephedrine.
    Mr. Souder. I believe we have an individual testifying 
later, and one of the things he said, my understanding, is that 
he said that people even go up to Chicago to get it. In other 
words, if you don't have some kind of a Federal law.
    Well, there is another thing that's in his written 
testimony that I wanted to ask you about. He says that 
sometimes, particularly for the larger even home-type labs 
there's a witness--not witness--well, it's kind of a witness 
intimidation. In other words, these labs come into the area, as 
they get larger, it describes people in the trees as guards and 
stuff, and the neighborhood people leave because they're afraid 
to report. They're intimidated in the neighborhoods.
    Have you seen much of that and do you do anything? One of 
the things in our new ONDCP bill, Congressman Cummings is the 
ranking member of the subcommittee, the senior Democrat, put in 
a thing because there's a family there whose house was torched, 
the Dossen family. The mother and all the kids were burned to 
death. Do you see much witness intimidation here? Is it a 
growing problem? And are there any programs to help protect 
people?
    Mr. Bryant. What we've seen here, Congressman Souder, is we 
have seen some type of witness intimidation. Most of these meth 
abusers, they use it, they stay up for 2 or 3 days at a time 
and get very little sleep. They're very paranoid. They see 
policemen behind every tree or every car that they see, they 
think it's a policeman following them. Almost all the labs we 
did have firearms. We've done several murder cases, contract 
hire to kill in Arkansas on methamphetamine violators. We also 
filed some RICOs on some laboratory operators. They can file 
witness intimidation charges on them.
    Part of the meth business is the violence. Like I said 
before, they're very paranoid, they're all armed, and they use 
violence as a necessary technique. And also employ counter-
surveillance techniques as, you know, they put security cameras 
on the property, on the roadways. Especially in the rural area, 
if their house is set way back where the lab is, they'll have a 
camera on the gate so they can see law enforcement coming, you 
know, half a mile before they ever get to the house and make 
entry. So we are seeing that in the State.
    Mr. Souder. On the murder for hire active cases, can you 
talk about it for a second?
    Mr. Bryant. One, I believe, was over in Searcy in White 
County. They killed a young lady. We prosecuted them. I believe 
we never did get the body, but we were able to prosecute them 
for the capital murder conviction on that. They killed her 
because they thought she was going to testify.
    We also had another case in the Pope County area, was a 
murder for hire where they killed a witness in front of his two 
children. Shot him in the head with a deer rifle the day before 
he was supposed to testify. We were able to clear that several 
years later and then prosecute that gentleman.
    Mr. Souder. Can you provide us a little bit more on those 
cases, particularly when they're federally related? We have an 
obligation--there's no way we're going to get people to 
cooperate with us if they think they're in that much danger. 
Could you describe the RICOcase, how your RICO case.
    Mr. Bryant. This gentleman in White County, and you're 
going to have a witness later today, J.R. Howard, and he was 
one of the case agents on this case.
    Mr. Souder. OK. We'll follow with him.
    Mr. Bryant. And he can give you all the details because he 
was one of the investigating officers on that.
    Mr. Souder. OK. Congressman.
    Mr. Boozman. Very quickly, I see that we've got some of our 
distinguished judges here. Mr. Cromwell, you mentioned the 
problem of not having enough personnel. How about as far as you 
know--I know that you-all have that problem. What about as far 
as our judges? This is your chance to----
    Mr. Cromwell. Shine.
    Mr. Boozman [continuing]. Shine.
    Mr. Cromwell. Or fail.
    Mr. Boozman. I just know you're back there taking notes.
    Mr. Cromwell. I believe that the statistics in the Western 
District of Arkansas definitely justify additional judicial 
resources as well as our Department of Justice resources in 
this district. I know that last year we were far in excess of 
any year we worked previously, and this year we're ahead of 
that already. So I believe both at the Federal bench and from 
the Federal prosecution standpoint, we could use additional 
resources.
    Mr. Boozman. Thank you.
    Mr. Cromwell. If I might add one thing. I wholly endorse a 
Federal law, just as Mr. Bryant said, addressing access to 
pseudoephedrine, but I think one of the things that needs to be 
addressed, too, is that Canada is a large source both by 
trucking and on-line orders of ephedra. And that needs to be 
addressed between the two countries.
    Mr. Souder. Just so you know, because I agree with you, and 
if you have any further specifics you want to add to that, at 
the Detroit border, we're getting more cooperation at the 
border, and they have some new laws, and they took down a load 
of pseudoephedrine. It was equivalent of 40 percent of what had 
previously ever been seen. This has been in the last, like, 60 
days, something like that. Which is just incredible, because if 
you take 40 percent in one load of what we had seen in the U.S. 
total in pseudoephedrine gives you an idea of the quantity of 
this stuff pours in.
    Annually we have the U.S./Canada problem interest exchange, 
and I'm the drug point person, so I was Mr. Unpleasant raising 
the pharmaceutical question, which is getting very caught up in 
prescription drug questions. Bottom line is, either we have an 
FDA and we have drug laws or we don't have drug laws. And given 
the way we're headed right now, which looks like a relaxation 
of pharmacy laws with Canada, we're going to have a big problem 
here. Because politically it's becoming very difficult to 
sustain a differential price structure because in America we're 
a little tighter on pharmaceuticals.
    We may get a compromise that says if they go through an FDA 
type approval, then they can go through the pharmacies, but as 
DEA will testify, and as you certainly know in prosecution, 
nothing is tougher than the Internet. And I am very worried 
about where this is headed with Canada unless they'll tighten 
up with Antwerp and Belgium. And their argument is they've 
tightened some, and at our last Washington hearing, DEA has not 
been able to identify where, if indeed we have made progress at 
the Canadian border, Belgium and Holland have not reduced the 
production; therefore, where is it coming in? And we're 
wondering whether it's Bahamas or somewhere south, maybe even 
New Orleans.
    Somewhere, if you seal off one border, they're going to 
push. And so we're pushing the Canadians, but this a strike at 
a perimeter. But we're going to have to watch our south as 
well, where we have less actually control of our border than 
the north.
    I thank you all for your testimony. Puts the full testimony 
in the record.
    And if the next panel could come forward, Mr. Keith 
Rutledge, State drug director of the Office of the Governor of 
Arkansas; the Honorable David Hudson, a Sebastian County judge; 
Mr. J.R. Howard, executive director of the Arkansas State Crime 
Lab; Miss Shirley Louie, who's the environmental epidemiology 
supervisor, Arkansas Department of Health; Sheriff Danny 
Hickman, Boone County Sheriff's Office; Mr. David Gibbons, 
prosecuting attorney for the 5th Judicial District.
    As soon as you-all get seated, we'll have you stand and 
take the oath.
    [Witnesses sworn.]
    Mr. Souder. Let the record show that all the witnesses 
responded affirmative.
    Thank you-all for participating this morning, and we'll 
start with Mr. Rutledge.

STATEMENT OF KEITH RUTLEDGE, STATE DRUG DIRECTOR, OFFICE OF THE 
                      GOVERNOR OF ARKANSAS

    Mr. Rutledge. Mr. Chairman Souder and Congressman Boozman 
and the staff, on behalf of the Governor and the people of the 
State of Arkansas, I want to tell you how much we appreciate 
your being here and inviting us to participate.
    My name is Keith Rutledge, and I'm the State drug director 
for the State of Arkansas and work out of the office of the 
Governor. And I'm also in that role the chairman of the 
Arkansas Alcohol and Drug Abuse Coordinating Council, which is 
a body of 25 people, State agencies and private people who deal 
with education, planning, prevention, law enforcement, the 
entire spectrum of the drug and alcohol problems in the State 
of Arkansas.
    First off, I have submitted my written testimony 
previously, and so you have that. And I want to briefly go 
through that with some high points that I think are important 
from the standpoint of the State of Arkansas, and as it relates 
to what's already been testified to.
    As I see it from the State Drug Director's position, we 
have two problems with methamphetamine. One is the major super 
labs and the trafficking problem that comes in from the 
Mexicans and the California connection, but the 1,200 or so 
labs that we're talking about are all home grown. That's all 
local stuff. And that's the ones that really are concerning our 
local sheriffs and our police and our multi-jurisdictional drug 
task forces, which also come within my purview.
    And I had noticed by looking at the data and the treatment 
people, you'll hear more from those people shortly, but in the 
past 10 years or so, there's been 1,100 percent increase in the 
number of methamphetamine admissions to those public facilities 
for treatment, which makes it No. 1 in the State of Arkansas, 
outside of alcohol treatment. It passed crack cocaine, and all 
these other things. And 97 percent of those people are 
Caucasians, which means that this is a real cultural drug.
    But what really concerns me here, last summer when I took 
this job and previously I'd been a prosecutor and a circuit 
judge, and knew that, you know, that this was a problem in 
domestic violence and other crimes, and we've had all this 
tremendous increase in the number of people in the Arkansas 
penitentiary. But the first person that called me--or one of 
the first people that called me after I took this job on July 
the 1st last year was the head of the Federal Government's 
rural housing--I forget what they call it. They used to call it 
Farmer's Home Administration. We've got a new name for it. But, 
anyway, he'd known me for a long time, and he came to me, and 
he said, ``Keith, we got a potential problem with our office 
and the HUD office in that we get back a lot of properties that 
are''--where they've had loans on them, and they were concerned 
about the liability where the meth has been manufactured in 
those homes. That's something I hadn't thought about. But I 
know that both HUD and the rural development people are really 
concerned about that.
    And so I got to looking at that, and I thought, well, you 
know, that is a new aspect of this that I hadn't thought about. 
And then I got to looking at the other aspects that I saw as a 
circuit judge, and one of those was the domestic violence thing 
that we really are seeing. And, also, the children in the homes 
where meth is being manufactured, we don't have a real good 
tracking system, and I noticed that ONDCP has some estimates on 
those kind of things, but I have talked to the juvenile judges 
across the State about that particular problem, because those 
children end up in their courts a lot of times, having to take 
them, and this is a real significant problem. Also, the 
environmental damage, you know.
    And so I look at all these things, and my job is broad 
based in that sense. What I would like to do is recommend to 
this body, and, Congressman Boozman, this is something that I 
think you alluded to a while ago, but I would like--and I've 
got some recommendations in my prepared statement, and as Mr. 
Bryant said, we're going to meet with DEA and ACIC on trying to 
figure out a better way to get the EPIC forms in. But also the 
one thing that I have looked at, and as a recommendation, is 
trying to come up with a system in the State of Arkansas, and 
it may need some Federal funding, where we can approach this as 
an epidemic.
    In other words, the word is right; it is an epidemic. Where 
we could go in, for instance, at the State level and assist 
these local prosecutors and law enforcement and treatment 
people and prevention people and bring in some assets. In Mr. 
Gibbons district down there and bring in for 60, 90 days and 
say, just swarm that place with law enforcement and others, 
treatment people, prevention people, and try to move those 
people out of that area and then go on to the next one, leaving 
a long term program in place.
    And I would certainly be amenable to any questions that you 
may have, and I appreciate the opportunity to be here today.
    Mr. Souder. Thank you.
    [The prepared statement of Mr. Rutledge follows:]

    [GRAPHIC] [TIFF OMITTED] T7398.025
    
    [GRAPHIC] [TIFF OMITTED] T7398.026
    
    [GRAPHIC] [TIFF OMITTED] T7398.027
    
    [GRAPHIC] [TIFF OMITTED] T7398.028
    
    [GRAPHIC] [TIFF OMITTED] T7398.029
    
    [GRAPHIC] [TIFF OMITTED] T7398.030
    
    [GRAPHIC] [TIFF OMITTED] T7398.031
    
    Mr. Souder. Judge Hudson.

       STATEMENT OF DAVID HUDSON, SEBASTIAN COUNTY JUDGE

    Judge Hudson. Thank you, I'll be making comments relative 
to the written statement from myself with attachments from the 
Fort Smith police chief, Randy Reed, and the Sebastian County 
prosecutor, Steve Tabor.
    My concerns related to drug use focus on our jails. Our 
jail's capacity to hold inmates, crowding due to drug 
offenders, jail expansion and related capital expenditures, 
and, most significantly, the increased ongoing operating cost 
from larger facilities. We simply cannot afford to incarcerate 
all drug offenders. The distinction must be made between 
criminal violators we are afraid of and those we are mad at. 
Lock up those we are afraid of and use other programs to deal 
with those we are mad at, such as drug courts.
    It is widely acknowledged that 80 percent of the 
individuals in the Sebastian County Adult Detention facility 
are directly or indirectly incarcerated due to some form of 
drug abuse. Sebastian County is currently in the process of 
expanding its jail at a cost of $3\1/2\ million with an 
increased operating cost projected at $400,000 a year. The 
county has been able to plan on jail expansion without 
requiring a tax increase. However, any further jail expansion 
will require additional revenues.
    The methamphetamine drug abuse problem is considered a 
major issue in the future expansion of the jail, continued 
crowding of the existing facility and the need to increase 
taxes to operate such a facility in the future. Our law 
enforcement officers and agencies do a great job in 
apprehending drug abusers, and the prosecuting attorney's 
office and judges are effective in administering judgment and 
sentencing these individuals to jail and prison time. However, 
for a certain category of these offenders, this solution is an 
expensive proposition with a high probability and likelihood of 
repeat offenders continuing to exacerbate the flow of arrests, 
crowding of jails and prisons, and related expenditures.
    The expenditure of tax resources to deal with the 
methamphetamine drug abuser in the areas of education, 
awareness, and the drug courts' use of judicial sanctions to 
help rehabilitate, is an effective national public policy 
partnership with our State and local governments. Law 
enforcement in western Arkansas has experienced a dramatic 
increase in the number of clandestine methamphetamine 
laboratory seizures. Each year, methamphetamine arrests and 
drug seizures double those of the preceding year. This has had 
a profound effect upon law enforcement, manpower and asset 
allocation.
    Combating this growing epidemic has become a complicated 
process which crosses traditional jurisdictional boundaries and 
requires investigators to consistently share information, 
specialize abilities and enforcement strategies. High intensity 
drug trafficking area programs expand and organize 
investigative methods and abilities among local, State, and 
Federal law enforcement agencies. HIDTA programs coordinate law 
enforcement efforts to target those responsible for the illegal 
manufacture of methamphetamine distribution and transportation.
    Recent Federal, State, and local investigations uncovered 
drug routes leading directly from Mexico to environments within 
Arkansas and surrounding communities. A collaborative effort 
promoted by HIDTA programs would prove extremely beneficial to 
the State of Arkansas and regional law enforcement agencies. 
Assistance from the Federal Government with regards to 
developing a HIDTA in our region would encourage collaboration 
and intelligence efforts and would dramatically affect direct 
interstate distribution of methamphetamines in the State of 
Arkansas.
    The widespread use of methamphetamines is the single worst 
contributor to crime in the State in this area of Arkansas. Not 
only are large numbers of people arrested each year for the 
use, sale, or manufacture of this drug but many more are 
arrested for other crimes directly related to the use of 
methamphetamines. For example, a methamphetamine user is more 
prone to the commission of violent offenses while under the 
influence of the drug. Many assaults, homicides, and robberies 
occur as the direct result of methamphetamine use. In addition, 
large numbers of methamphetamine users resort to the commission 
of property crimes in order to support their habit, because 
they're unable to successfully maintain employment and fund 
their addiction.
    Because of a disturbing trend for methamphetamine labs we 
have in residential areas, increased attention has to be given 
to the State for clean up of laboratory sites. Every dollar 
spent in the drug court is an outstanding investment which will 
reap untold savings to the system. For every person who 
successfully beats their addiction through the efforts of drug 
court, many thousands of dollars are saved is the long run in 
the cost of investigations and incarceration. I appreciate the 
opportunity to be here, and I wish you well as we fight this 
very difficult issue.
    [The prepared statement of Judge Hudson follows:]

    [GRAPHIC] [TIFF OMITTED] T7398.032
    
    [GRAPHIC] [TIFF OMITTED] T7398.033
    
    [GRAPHIC] [TIFF OMITTED] T7398.034
    
    Mr. Souder. How big is Sebastian County?
    Judge Hudson. We have a population of 115,000.
    Mr. Souder. Thank you.
    Mr. Howard.

 STATEMENT OF J.R. HOWARD, EXECUTIVE DIRECTOR, ARKANSAS STATE 
                           CRIME LAB

    Mr. Howard. Thank you, and good morning. The Arkansas State 
Crime Lab was established in 1977, and it's the only forensic 
laboratory in the State. The primary function of the crime lab 
is to provide forensic services including drug analysis to all 
local, county, State, and some Federal agencies. I might add 
that within the State there are over 450 police departments, 75 
county sheriffs departments, and about 80 State police and 
investigators, and not even taking into account the other State 
law enforcement agencies that use the crime lab. So we've got 
many folks out in the State loading our wagon for us.
    Illicit methamphetamine labs were relatively unknown in 
Arkansas until the mid 1990's. About that time, the simplified 
recipes for methamphetamine manufacture became available and 
the availability of the recipe as well as the accessibility of 
components resulted in an explosion, sometimes literally 
explosions, in the number of meth labs beginning in 1995. And 
that increase continues through today. The 400 percent increase 
in meth lab seizures from 1995 to 1996 kind of signifies the 
beginning of the upward spiral of the meth lab seizures in the 
State.
    Initially, the evidenced seized from the meth labs was 
processed in the drug section of the crime lab. However, an 
1,800 percent increase in the number of meth labs seizures from 
1995 to 1998 resulted in an illicit lab section of the crime 
lab being established. And it's established specifically to 
handle analysis of evidence from methamphetamine labs. At the 
time, three analysts staffed the illicit lab section. 
Currently, the illicit lab section is staffed by six analysts, 
and they're tasked with handling the 1,208 meth seizures that 
were accomplished in 2003 and are also tasked in handling 
anticipated--1,305 labs anticipated to be handled this year.
    And in addition to analyzing the evidence, the analysts are 
also tasked with responding to the crime lab sites at the 
request of local or other law enforcement agencies, and they 
provide safety information to officers at the scene; they 
assist in rendering the site safe; they collect evidence 
samples; they wind up testifying in court; and also they 
provide training to law enforcement officers regarding the meth 
lab.
    Cases we receive each year continue to outnumber the cases 
processed which results in an unacceptable backlog of almost 
1,000 cases in the illicit lab section. And this backlog is not 
a result of any inefficiencies on the part of our lab 
personnel, but it's due primarily to the sheer number of cases 
coming into the lab. Although additional analysts are needed, 
current budget constraints hinder the hiring of the additional 
analysts.
    And just as the illicit lab section has no control over the 
number of hours spent in court, we also have no control over 
the number of man hours spent in responding to meth labs, 
because it's totally dependent on calls we receive from outside 
law enforcement agencies. And on average since January 1, 2004, 
illicit lab analysts have spent 74 hours in court, which is 
almost 2 weeks in court, and 187 hours responding to meth lab 
scenes. And that's over 4 weeks. And each hour they spend in 
court or at the scene takes them away from the laboratory 
condition where they analyze the evidence that's needed for 
court. And since 1995, the number of meth labs seized has 
increased by almost 5,000 percent, while the number of illicit 
lab analysts has increased from three to six. The backlog of 
cases, as well as the congestion of the judicial system 
contributes to another unique problem.
    In many instances, persons charged with manufacture of meth 
will bond out of jail and may be arrested additional times for 
manufacture of meth prior to going to trial on the first 
charge. The illicit lab section assists the Criminal Justice 
Institute in Little Rock by providing instructors over the 
methamphetamine awareness first responders course, and 
clandestine laboratory evidence sampling preparation for this 
course. It is through this training that analysts hope to 
educate officers in the proper response techniques to meth labs 
for safety service and to instruct officers in proper 
techniques for evidence sampling and handling.
    By achieving this goal, the analyst will decrease the call 
outs to lab sites and increase efficiency of the cases 
submitted to the lab because proper packaging and submission 
procedures have been followed. Of course, as a result, it 
allows the analyst more time in the laboratory.
    And in conjunction with the need for training law 
enforcement personnel and increased manpower, I, again, believe 
that changes in the law to restrict the availability of 
ephedrine and pseudoephedrine are much needed. I believe 
Congress should attempt to address this problem by listing 
ephedrine and pseudoephedrine as a scheduled drug that either 
requires a prescription or at least restricted availability. As 
pertains to the State Crime Lab, we're in need of additional 
chemists to enhance the staff of the illicit lab section and to 
support these chemists, we are going to need additional 
vehicles and equipment as well as environmental training for 
our people.
    Despite our manpower situation and our backlog of cases, 
our analysts, I would like to say, will continue to produce a 
quality product the criminal justice system can utilize in 
continuing the fight against methamphetamine in Arkansas and 
across the Nation.
    Again, I'd like to say thank you for allowing me this 
opportunity to speak.
    Mr. Souder. Thank you very much.
    [The prepared statement of Mr. Howard follows:]

    [GRAPHIC] [TIFF OMITTED] T7398.035
    
    [GRAPHIC] [TIFF OMITTED] T7398.036
    
    [GRAPHIC] [TIFF OMITTED] T7398.037
    
    [GRAPHIC] [TIFF OMITTED] T7398.038
    
    [GRAPHIC] [TIFF OMITTED] T7398.039
    
    Mr. Souder. Miss Louie.

    STATEMENT OF SHIRLEY LOUIE, ENVIRONMENTAL EPIDEMIOLOGY 
           SUPERVISOR, ARKANSAS DEPARTMENT OF HEALTH

    Ms. Louie. Gentlemen, thank you. I'm Shirley Louie. I'm 
chief environmental epidemiologist for the Arkansas Department 
of Health. And I thank you for the opportunity to discuss with 
you the potential dangers to human health associated with 
exposure to hazards that you find in areas where there have 
been clandestine methamphetamine laboratories functioning, and 
also to discuss the complexities of cleaning up those 
properties.
    In Arkansas, as well as in other parts of the country, 
we've heard that sites where meth has been produced are 
shifting away from rural areas and oftentimes into more densely 
populated and urban areas. In homes, trailers, apartment 
complexes. These laboratories are not laboratories the way we 
look at a lab. There's very little control. There's very little 
attention paid to safety. Oftentimes there are fires and 
explosions, and the chemicals are not handled in a judicious 
way.
    Law enforcement here in Arkansas has done an outstanding 
job of doing what we call primary clean-up, which is going in 
and taking out the chemicals, the paraphernalia, and then 
turning the--after processing the site, they turn it back over 
to the property owner. And then it becomes the property owner's 
responsibility to finish the clean-up detail. Almost all of 
these sites are contaminated with residuals of the meth 
process.
    In many cases, the property owner, however, will just turn 
around and have people reoccupy the property without much 
attention paid to where the contamination is or how much there 
is of the contamination. And depending upon the methods used to 
clean up, you can run into residuals of solvents or heavy 
metals or acids or bases, or sometimes even chemicals that we 
don't have any way of being able to identify.
    Persons can be exposed through a contact with contaminated 
surfaces or breathing in the dust. You can have rashes 
associated with this sort of exposure, irritation to your eyes, 
your nose, your skin, headaches, dizziness, and a myriad of 
respiratory and central nervous system problems. Children are 
particularly vulnerable because of their activities, especially 
smaller children crawling around on the floor, putting things 
in their mouths. Their skin is very, very sensitive, and they 
have developing nervous systems. And because of that, they are 
very vulnerable.
    At this time, there are no rules and regulations in 
Arkansas that cover what we call secondary clean-up. That's 
clean-up that we state should be necessary before you reoccupy 
a space. However, the Arkansas Department of Health has 
developed what we call guidelines to help property owners, 
tenants, and people who control real estate, to help them 
figure out what to do. These are general guidelines, they're 
not meant to be all encompassing, and they are guides and 
recommendations to help the public. They are not rules and 
regulations that are enforceable. Arkansas Department of Health 
does understand that enforceable rules and regulations may be 
required to insure the quality and uniformity of what we called 
secondary clean up.
    There needs to be an adequate oversight if there's going to 
be proper reports. There also needs to be adequate and 
continuing funding for any program that's developed. I think 
relying on existing personnel and resources, as from already 
overburdened law enforcement and environmental protection and 
public health infrastructure will not be adequate to address 
this problem.
    And you as law makers, as you continue these discussions 
and establish regulations and policies and programs to help us 
address these problems with secondary clean up of contaminated 
sites. I hope you'll ensure that these programs will be 
adequately funded, they will be scientifically and technically 
sound, and also that they will be protective of public health 
and the environment. Thank you.
    Mr. Souder. Thank you.
    [The prepared statement of Ms. Louie follows:]

    [GRAPHIC] [TIFF OMITTED] T7398.040
    
    [GRAPHIC] [TIFF OMITTED] T7398.041
    
    [GRAPHIC] [TIFF OMITTED] T7398.042
    
    Mr. Souder. Mr. Hickman.

       STATEMENT OF DANNY HICKMAN, SHERIFF, BOONE COUNTY

    Mr. Hickman. Thank you for inviting me here today. Boone 
County is in northwest Arkansas, and Harrison's the county 
seat. My county is 35,000; small county. We see many problems. 
We border Branson, MO. And we're a very rural county. Some of 
the meth problems we're seeing, we hear of people buying the 
precursors every day, we just don't have the manpower to 
maintain it. We're starting to see more violence in these meth 
cases. She'd showed you a picture of a gun there; that 
particular case, the gentleman that we had a 90-minute standoff 
with him. He had a 4-year-old boy. It was very ``touch and go'' 
for quite some time. This man had been up for days on meth. And 
it ended in a good resolve, the situation there.
    But, also, you've got a picture of a--the gentleman spoke a 
while ago of monitors. We're running into a lot monitors that 
they know we're coming before we get there. In every lab 
situation, every lab has weapons. We run into that every time. 
It's a very dangerous situation.
    Myself and the Drug Task Force, our case loads have 
increased about 50 percent over the past 5 years, and I may add 
that my jail is overcrowded. I have a small 35-bed jail, and 
I've had as high as 80 people in my jail. And we're seeing 
about 80 percent of my inmates are drug related.
    I'm very high on education. I educate my staff as much as 
possible. And I'm very high on any educating the public, which 
we do a lot of seminars to the public, and we connect well with 
the businesses. And the result of that, these businesses are 
able to call us and tell us whenever there are people buying 
precursors.
    And as you can I work real close with the Criminal Justice 
Institute, which I've got graduates from the Crime Scene Tech 
school, which has helped our small department greatly. I'm just 
fortunate to have sent two of my officers to the FBI Academy, 
the national academy, which is, again, the education. Once 
again, I do think that education has helped us out a lot as far 
as prevention.
    I do think the blister packs, the cold medicine, we should 
continue on with the limited amount that are able to be sold to 
them, but I think it should be in--I believe they should be 
made to sign for these and give us a means to--a legal means to 
collect data from the businesses whenever they sign for them 
and such as that. We get data from pawn shops where people pawn 
stuff off. We need to be able to get data so that we can 
continue dealing with our drug cases that way.
    Once again, thank you for allowing me to speak to you 
today.
    Mr. Souder. Thank you very much.
    [The prepared statement of Mr. Hickman follows:]

    [GRAPHIC] [TIFF OMITTED] T7398.043
    
    [GRAPHIC] [TIFF OMITTED] T7398.044
    
    Mr. Souder. Mr. Gibbons.

STATEMENT OF DAVID GIBBONS, PROSECUTING ATTORNEY, 5TH JUDICIAL 
                            DISTRICT

    Mr. Gibbons. Thank you. Good morning, Mr. Chairman, 
Congressman Boozman. I'm truly honored to be here. I'm 
prosecuting attorney for the 5th District. The 5th District is 
comprised of three counties: Pope County, Johnson County, and 
Franklin County. We're at the foot of the Ozark Mountains. I-40 
traverses us from east to west, west to east, and the Arkansas 
River is our southern boundary. I didn't know if y'all know 
where that is.
    Our title for this subcommittee hearing, Methamphetamine 
Epidemic in Arkansas, accurately reflects the situation in the 
5th District. It truly is an epidemic, and it's a growing 
epidemic.
    In 2003 and 2004, the first 5 months of 2004, 52 percent of 
all felonies filed were directly related to methamphetamine. 
Now, when I say, ``directly related to methamphetamine,'' I 
mean it's possession of methamphetamine, manufacture of 
methamphetamine, possession of paraphernalia, the attempt to 
manufacture or deliver. That, of course, doesn't take into 
account the forgery, the hot checks, the burglaries that people 
do to support their habit. Unfortunately, this epidemic, at 
least in the 5th District, appears to be in large part an 
epidemic of our own making.
    In 1997 when I first took office, 9 percent of the cases 
filed, and these aren't arrests or searches or labs uncovered, 
these are actual felonies filed, there were nine manufacturing 
felonies filed in 1997. Last year, in 2003, there was 67 
manufacturing felonies filed, and that includes not just 
straight manufacturing, that's also paraphernalia with intent. 
We don't have the product, but the intent is definitely there 
to manufacture. So far, the first 5 months of 2004, there have 
been 36 manufacturing felonies filed in those three counties.
    The manufacturing cases that we have are not truly super 
labs. These are what have been called mom and pop labs, and 
probably accurately reflects the way they are. Most of these 
labs in one generating period will produce less than an ounce, 
maybe a little bit more than an ounce, but what I would like to 
drive home to this subcommittee today is that the impact that 
those mom and pop labs have goes way beyond the actual drug, 
the actual product in this way. It takes a lot more manpower 
and a lot more resources to investigate a lab. You've got to 
have the people, you've got to work informants, and you've got 
to do the search warrant. You've got to go in and execute the 
search warrant. That area has to be secured. It takes a lot 
more manpower.
    The clean up, there's been reference to clean up. 
Approximately 95 percent with that specter of perjury looming 
over me, I don't want to--but approximately 95 percent of all 
of our labs require clean up. We have a company from out of 
State that comes in and does that. And then, with 
methamphetamine labs, the crime lab, we put a tremendous amount 
of work on them because you have a simple possession case or a 
distribution case, you've got one substance that needs to be 
analyzed. That is the meth. With a lab, you've got to analyze 
all those other things so that I can take it to a jury and say, 
``Well, this is red phosphorus, this is iodine,'' this is this, 
this is that, plus they've got to testify because they've got 
to tell the jury how all this combines. It puts a tremendous 
strain on the crime lab. But the trials themselves take long on 
these mom and pop labs.
    A simple possession case or a distribution case, you've got 
a day, day and a half. A lab case could take 2 to 3 to 4 days. 
And, finally, it puts a tremendous strain on the prisons 
because--and I want to hasten, the meth manufacturing cases 
absolutely justify that these people go to prison. And in 
Arkansas, they have to serve 70 percent of their time before 
they're eligible for parole, which is correct, and that's the 
way it should be. Nevertheless, that's the impact it has.
    One thing that I do want to bring out to this, this 
subcommittee already knows that no matter the technique that's 
used to produce this methamphetamine, there's one common 
ingredient and that's pseudoephedrine. Pseudoephedrine is to 
methamphetamine production in the 5th District as ball bearings 
were to Nazi war production in World War II. That is their 
point of vulnerability.
    Mr. Bryant's already made--Bill Bryant, already made 
reference to the Oklahoma law. That law was passed in March. 
It's House Bill 2176. Basically, it says that pseudoephedrine 
has to be dispensed by a registered pharmacist or a registered 
pharmacy technician. This doesn't apply to gel, this is just 
the solid form. But the receiving person has to have a photo ID 
and sign a log, which the sheriff alluded to, and no person can 
have more than 9 grams within 30 days without a valid 
prescription.
    Jim Talley, a writer of the Associated Press in the Fort 
Smith paper, Southwest Times Record on June 22nd said that 
Oklahoma--this is what the report is--in Oklahoma, the lab 
production dropped 70 percent since that law went into effect 
in the early part of April. He went on to say that 90 meth labs 
were reported to the Oklahoma State Bureau of Investigation in 
March. The figure fell to 64 in April and then dropped to 29 in 
May. Now, that's their figures, but when you think about it, 
these people that run the mom and pop organizations, they don't 
plan good, so that can very well be accurate, and I assume that 
it is.
    There's no question that you have to attack this 
methamphetamine problem on all fronts; the drug courts, 
treatment, interdiction on ice--or interdiction. But in my 
opinion, to restrict the access of pseudoephedrine would drive 
a stake in the heart of methamphetamine production, in the 5th 
District.
    Thank you very much.
    [The prepared statement of Mr. Gibbons follows:]

    [GRAPHIC] [TIFF OMITTED] T7398.045
    
    [GRAPHIC] [TIFF OMITTED] T7398.046
    
    [GRAPHIC] [TIFF OMITTED] T7398.047
    
    [GRAPHIC] [TIFF OMITTED] T7398.048
    
    [GRAPHIC] [TIFF OMITTED] T7398.049
    
    [GRAPHIC] [TIFF OMITTED] T7398.050
    
    [GRAPHIC] [TIFF OMITTED] T7398.051
    
    Mr. Souder. I'm going to make an absolute. One thing that's 
very discouraging and what's absolutely clear is that the 
growth rate expense, we don't have the money to deal with it 
the way we're dealing with it. So I want to ask a couple of 
questions in that vein. Let me start with Ms. Louie and Mr. 
Howard, maybe, but start with Ms. Louie.
    The chemicals that they're using in the labs are clearly 
dangerous. Don't take any of my questions otherwise. Do we have 
any hard evidence of people getting sick or being treated or 
problems occurring at homes where a lab was previously, and now 
somebody else has moved in, and they've gone to the hospital? 
Do we have any hard evidence, or is this mostly a concern or 
looking at what could be?
    Ms. Louie. Some of the information is anecdotal in that a 
mother or father will bring their child into an emergency room, 
for instance, and they will have symptoms that are consistent 
with exposure to chemicals. But it's oftentimes they don't even 
know that they've moved into a facility or a home or an 
apartment that was once used as a meth production facility.
    Physicians don't make that cause and effect oftentimes. 
They treat the symptoms, they try to make the child well, but 
without that kind of information, and since these chemicals can 
also be used in other areas, too, it's not always clear cut 
why. We know from experience, and in occupational settings, in 
accidental exposure settings that if a child is exposed to 
those chemicals which clearly can be and oftentimes are 
detected on those properties, they can and will be sick. And so 
I think even though that hard evidence is not there, it's not 
because it isn't real. Perhaps it's because we haven't looked 
hard enough to find it.
    Mr. Souder. Yes, we have a huge problem here because even 
in Arkansas, what we're hearing is that the labs aren't 
producing large quantities and that the--if we're looking at it 
from an addition treatment side, the problem is not the home 
grown labs, the problem is the Mexican trafficking 
organizations, even in Arkansas. Because what we didn't ask, 
but I know the answer to the question is, is that it isn't only 
that the home grown labs only provide 30 percent roughly of 
Arkansas, but it isn't as addictive and it's not as explosive. 
In other words, the super lab's purity and addictive components 
are greater than the home grown because they're using different 
chemical forms and so on and so forth.
    Looking at it from a drug treatment standpoint, it's not 
the small mom and pop labs. If we're looking at it from the 
numbers who are addicted, it's not the mom and pop labs. If 
we're looking at it from violence to the general--if we're 
looking at court cases related to child abuse, court cases 
related to spouse abuse and other things, it's not the mom and 
pop labs. And yet, we're spending an incredible amount of 
dollars with clean-up equipment, the time, and what it 
absolutely is, is the mom and pop labs are the greatest danger 
physically to local police forces because as they go in, these 
people are armed. So clearly it's a danger to them. It's 
clearly the No. 1 thing that's taking up the time of our local 
police forces, which means it's being diverted from other crime 
as they zero in on this, particularly if they have to wait at 
the location. It's taking the biggest percent of the prisons.
    I had one county in my district that every single person is 
in on meth. They can't even arrest anybody with anything else 
because they're overcrowded, and everybody in there is on meth. 
That is taking up the prison space.
    Ironically though, with people who often have ounces as 
opposed to pounds, which is the very reverse of our policy on 
marijuana, that it has a huge impact on the law enforcement 
side. But what I'm trying to sort through, after sitting 
through hearing after hearing, in the environmental context, 
we're going to have to have a very hard look at the 
environmental and healthcare side of this because most of these 
things are household chemicals that are already in the house in 
many cases. They're in different forms.
    And the question is, is there something we could do to spot 
check in emergency rooms? You've got a couple of counties that 
have lots of these labs. Could we do a spot check and look at 
something in the 10 highest counties in the United States where 
there are labs to investigate the emergency room? We may be 
making a false assumption here and pouring our money 
intensively into something without the greatest return. In 
other words, one of the first cuts may be has there been 
spillage, has the stuff been mixed, what form of the danger it 
is. Because it isn't sustainable.
    There's no way the Federal Government, which is more broke 
than the State government, which is more broke than the local 
government, but the local government doesn't want to raise 
taxes, the State government doesn't want to have to raise the 
taxes, and the Federal Government, we're trying to cut taxes, 
so the bottom line, is that it's not like there's money. Any 
money we give you, we're just running up the deficit to give it 
to you. But we certainly aren't going to be able to sustain the 
type of increases that you were talking about. I mean, it's 
exponential.
    And I can see you're backlogged 1,000 cases, and in every 
lab, you have to have multiple things to take down a lab which 
makes a couple of ounces, and to be able to prove it in court, 
we have an unsustainable problem here. It isn't whether the 
Federal Government is going to do it, the State government, or 
local government. It's not sustainable.
    From the law enforcement I heard that we need to be 
brainstorming how we prioritize this system. So if you want to 
give us some additional information, and nobody likes to make 
that cut, because we'd like to get them all, but we're going to 
have to have some kind of prioritization system as we've had to 
in other kinds of narcotics and other kinds of challenges. 
Pseudoephedrine is definitely a problem and we clearly have to 
crack down, we have to get more information. We're working on 
some legislation.
    Now, I want to ask you a couple of particular questions 
about that. I really want you to brainstorm. You can't 
possibly, as a prosecutor or a judge or a sheriff, or even EPA, 
you can't go running after all these labs, and we need to 
figure out what is the extent of the risk, what are the major 
things that get us over from potential risks to risks but more 
short-term risk, the things that can really be damaging. 
Clearly, it's the child abuse risk, and if Arkansas doesn't 
have that law, you ought to look at the California law because 
anybody that's cooking in their home where there are small 
children, they put that child at risk for explosion purposes.
    But, let me ask, do you use anhydrous ammonia here in some 
of the labs? We have one case in Indiana, this idiot went 
into--because we need to look at somehow how to protect in some 
of the rural areas, they have these areas where they have 
anhydrous ammonia in big tanks, and some idiot went in there, 
got one and a half turns from blowing up a tank that would have 
taken a town of 700 off the face of the earth. It was at the 
edge of town, they were living out in the country. One and a 
half more turns on that, because he couldn't get it all the way 
off, one and a half more turns, it would have instantaneously 
killed all 700 people in the town before they even knew they 
got hit.
    Now, that's a different level of risk than some home cooker 
who, basically, has himself in the house or his spouse in the 
house or little kids in the house. Because they're going to 
burn the place up, they're going to wound the kids, that's risk 
immediately on that. While he's cooking there's a risk. But 
we've got to look at the clean up. Clean up and the hard data 
here, because we don't have enough dollars to do this. We'll 
never have enough dollars to do this.
    I'd like to hear everwho wants to take a crack at that. Go 
ahead.
    Ms. Louie. Thank you. I guess one of the issues that we 
looked at when we developed the Arkansas Department of Health 
guidelines for secondary clean up was just that issue of, you 
know, you will never be able to clean a facility up to where 
it's pristine and spotless. However, you can be reasonable, and 
let's look and see a fundamental assessment of what has been 
the contamination and where were these things and where were 
the chemicals stored, where was the activity going on? And then 
make that assessment. It may be that clean up can be very 
superficial and not all that expensive. It is still the 
responsibility of the property owner. Or you make that person 
take on that responsibility.
    If you make those regulations or guidelines reasonable 
enough so that there is still protection of public health but 
it's not so overwhelming that it's going to cost that person 
more than his or her house is worth in order to facilitate that 
clean up. I think there needs to be a reasonableness and a 
balance without jeopardizing public health and the environment 
but still making it so it's doable so we're not having to dump 
that last million dollars to clean up that last model.
    Mr. Souder. Sheriff, if your guys come across a home meth 
cooker, how long does it take to get clean up?
    Mr. Hickman. It depends upon if the crime lab's available 
at the time. It can be--I'm in north--the northern part of 
Arkansas and Little Rock being in the central, it depends on 
where they're at. Anywhere from 2 hours to 8 to 10 hours.
    Mr. Souder. And do your guys leave the scene.
    Mr. Hickman. No, sir. We're there until it's gone.
    Mr. Souder. And the closest is Little Rock.
    Mr. Hickman. Yes.
    Mr. Souder. So what's typical? How long? Do you just leave 
one person there or do you leave the whole team there?
    Mr. Hickman. No, my--the sheriff's office and the Drug Task 
Force coordinates that together. It's anywhere from probably 
five to six guys.
    Mr. Souder. So they're tied up?
    Mr. Hickman. They're tied up until it's gone.
    Mr. Souder. So it's typically 4 hours.
    Mr. Hickman. That would be the earliest.
    Mr. Souder. So half day, you've got five to six people tied 
up and sitting there.
    Mr. Hickman. Yes. Actually, you know, from the 
investigation end of it, until we write the search warrant, 
while they're writing the search warrant, I've got to have a 
deputy sit on the lab, you get the search warrant signed off, 
and the search starts, a normal lab, you're looking at probably 
a good 10 hours.
    Mr. Souder. I'll come back to Mr. Rutledge in just a 
minute.
    Mr. Gibbons, you were talking about the difficulty in 
prosecuting somebody and all you've got to put together and all 
that case. Do you see any ways that we can simplify this 
process? I mean, this isn't realistic. It's tough if you were 
doing 20 labs, but when you get into the hundreds, we're not 
even in the zone of realism here for being able to fund it long 
term.
    Mr. Gibbons. There's nothing the Federal Government can do 
of which I'm aware of that brings to mind that would enable me 
to prosecute a case easier. Because, you know, simply the facts 
are there, and that's what they are. And a jury's got to learn 
that there's certain things you have to do.
    Yes, you're right, Mr. Chairman, it isn't realistic, but 
the fact is, it's realty. And these things have to be stopped, 
and we do have to go out to these labs. We may not have to 
clean each one up, but we have to go to each lab. Because if we 
don't, the whole block will be tampered--the whole area is 
contaminated.
    Mr. Souder. Let me give you an example. If we said that on 
the surface if you had X amount of pseudoephedrine and it's not 
in the pill bottle to be used as for aspirin or something, that 
you are de facto able to be prosecuted for a certain of crime? 
And then you would look at a prosecutor and the prosecutor 
would say, ``Since he was only producing this amount, I'm going 
to get him on the pseudoephedrine charge rather than a meth 
charge.''
    Mr. Gibbons. Yeah, I do that. We have a law in Arkansas 
where we actually have one in possession of certain quantities 
pseudoephedrine is in and of itself a crime. We use that to a 
degree. Also, I mentioned earlier, the possession of 
paraphernalia with the intent to manufacture is a Class B 
felony. I use that a lot. And we do that, just what you're 
talking about, Mr. Chairman. When we see something that's not 
an active lab that's putting out a whole lot of product, if we 
can stop them there, that's how we do that. Nevertheless, we 
still have a lot of the chemicals, and we still have that same 
problemof showing what they intended it for. So, yeah.
    Mr. Souder. So is there a way when Sheriff Hickman walks up 
to the place, rather than tying up 6 to 10 people, that he can 
get a quick read as to whether this is going to be a 
paraphernalia pseudoephedrine prosecution as opposed to a large 
one?
    Mr. Gibbons. Sheriff Hickman will know when he goes in 
there that these people have purchased all of these items. He 
will know that they have--I'm almost sure he will be positive 
that they have producedmethamphetamine in that house before, or 
else he wouldn't be there. Some informant's told him that. Then 
he has the duty to go in and see what's actually going on. 
Sometimes he'll get a lab in progress, sometimes he'll get the 
lab after it's down. Sometimes he'll get simply pills. So he 
doesn't--he doesn't know that, but he knows he's got to go in 
there and do something because that's just the----
    Mr. Souder. Mr. Rutledge.
    Mr. Rutledge. There were a couple of things, Mr. Chairman, 
that you mentioned that I think might be helpful. One is the 
definition of a lab. You know, what constitutes a lab? And I 
have tried to find that out from various people, and it would 
make it easier if we had some definition.
    One thing that you might--that I've noted in my other 
statement was that the drug task forces in Arkansas last year 
alone confiscated 273 pounds of methamphetamine, and the vast 
majority of that was home grown in these mom and pop. That's a 
lot of methamphetamine in these little mom and pop operations, 
that--when you break it all out.
    We are also meeting with the--I think the sheriff mentioned 
the CJI a while ago, which is part of the University of 
Arkansas. It's the Criminal Justice Institute. And my office 
and others have been meeting with CJI and the State police and 
DEA and others in an attempt to try and develop a training 
for--instead of him taking six guys, six deputy sheriffs, 
certified law enforcement officers, to sit there on that lab 
while--you know, it may take 8 hours for somebody to come there 
and clean it up and look at it and all that kind of stuff, that 
if there was some cross-training ability with the emergency 
management people and the volunteer fire fighters who are 
trained in certain aspects of chemicalspills and hazardous 
waste and those kind of things, where they could be utilized 
with the sheriff's deputies to fill in. Because a lot of these 
are volunteer guys, and they would be more than willing to be 
there to protect the site while the law enforcement people 
could be doing other things and--if they were properly trained 
in those techniques. And, conversely, the law enforcement 
people could be trained to do some chemical hazardous work as 
it relates to terrorism and other chemical things that the 
emergency management people are trained to do.
    And what we're looking at is trying to figure out a way to 
cross train those people into some kind of a system. Because 
one thing we're--the DEA does a good job of training our 
people, but as Mr. Bryant said, there were 400 something that 
they had trained for the State of Arkansas. Well, all these 
labs require certified lab officers. You can't just have John 
Doe Deputy Sheriff walking in there doing this stuff. And a lot 
of those people, you know, we get them trained, and then they 
go on, they get promoted to different jobs, or they move to a 
different agency. And so it's a continuing flow problem. And 
we're looking at trying to come up with a proposal that maybe 
the government can help us fund to train more people and not 
just law enforcement officers. You know, cross training. That 
may help alleviate some of these local law enforcement 
problems.
    Mr. Souder. I believe Congressman Boozman has some more 
questions. Thank you very much.
    Mr. Boozman. Thank you-all for your testimony and your 
statements. Your written material that you turned in really was 
excellent.
    Mr. Gibbons, people tell me that the small labs, that it's 
almost like the Amway, they cook for a little bit, maybe for 
one or two or three people to support their own habit. Is that 
true, or is reality that they are supporting their own habit, 
but they're also--you know, you mentioned a large amount that 
was seized over and above. When we talk about a small lab, what 
are we really talking about?
    Mr. Gibbons. Well, I think that we're talking about, at 
least in my district, Congressman Boozman, we're talking about 
a lab which would generate somewhere around an ounce of 
methamphetamine during just one generation period. One 
generation period, using the methods that are used in the 5th 
District, generally would be about a 24-hour period from pills 
sold to finished product. It's not--I haven't seen it--like 
when you say it's for their own use, there's two or three of 
them that it never gets outside that circle, and that's where 
it enters the trade. It's part of it.
    I would agree with Mr. Bryant who testified, that's 
probably 70/30. I might put it more like 65/35, but somewheres 
in there. But it does enter the stream of commerce, if I can 
use that phrase. It does get outside those two to three people. 
And it has to be stopped.
    You know, the sheriff, whether it's a pill soak or whatever 
it is, it may have ramifications on how we clean it up, but it 
nevertheless has to be stopped because it's a problem that just 
feeds on itself.
    Mr. Boozman. You mentioned that the primary ingredient, no 
matter how you make it, is the ephedrine and pseudoephedrine. 
As you-all make your busts and do your analysis in Arkansas, 
where do the perpetrators get their stuff?
    Mr. Gibbons. They go, Congressman, they go--or in my 
experience in the 5th District, they go from retail store to 
retail store, they go to convenience stores, they go to Wal-
Mart, where they're limited, but then they go to the other one. 
There's Russellville Wal-Mart, Clarksville Wal-Mart, and Ozark 
Wal-Mart in my district. And we have good cooperation from 
retail merchants, but iodine and things of that nature, they 
may go to the feed store, red phosphorus, of course, they get 
from the striker plates in matches. But, basically, the 
pseudoephedrine, they'll purchase from convenience stores and 
places like that.
    Mr. Boozman. So we are getting more cooperation? You 
mentioned, Sheriff Hickman----
    Mr. Hickman. We're getting a lot more cooperation. Like I 
said, the education of businesses and what have you, just like 
he said, what we find is a group of people will come in and 
they'll split up and go to these retail stores and Wal-Mart and 
feed stores, and then they'll gang back up and go off and do 
their lab.
    Mr. Boozman. Have we prosecuted any stores, as far as 
convenience stores, that seem to be breaking the law far as 
dealing?
    Mr. Gibbons. We----
    Mr. Boozman [continuing]. Themselves.
    Mr. Gibbons. I didn't mean to interrupt you, but in my 
district we had one store that we came very close to, but it 
went awry. But that's the only one that I'm aware of in my 
district.
    Mr. Boozman. Is that an area we need to concentrate on?
    Mr. Rutledge. You know, there is a State law that, you 
know, limits the amount these people can--and the enforcement 
of that law is real tricky, because just like Mr. Gibbons said, 
you know, the guy goes through this line at Wal-Mart and goes 
through that line down there, and he goes to the next Wal-Mart 
or the next convenience store. And these stores are helpful in 
furnishing data and about who's buying and all that kind of 
stuff.
    I do think that most prosecutors in the State will 
prosecute if the stores violate, but I don't think that's the 
big problem. I think it's the guy--you know, they're not 
violating--now, there are a few, and we've had some in north 
Arkansas where some 7-Eleven type store might buy cases of this 
stuff and pedaling it.
    I know there was one case in Batesville that they were 
taking it to Jonesboro by the case and--this was a number of 
years ago--and selling it to the people that were 
manufacturing, and that kind of thing. And those people are 
being prosecuted if we find them, but I think the biggest 
problem is just this buying it, you know. But we're certainly 
looking at it from the State level.
    Mr. Boozman. How about the statistics I read which say that 
this is something that many people get into later in their 
life, and since late teens or whatever, on up into their 40's, 
and lot of women get into this disproportionally, compared to 
some other stuff? I mean, how is that impacting the system?
    Mr. Rutledge. I think that is probably the most--we have 
had a tremendous explosion in the number of women committing 
crimes, and especially this particular crime. In Arkansas, as 
the data would show, in the public facilities, admissions for 
methamphetamine, 40 percent are women, which, that's pretty 
high on any kind of drug problem. And what we're seeing in 
Little Rock and in some of these other areas where we have 
treatment facilities for women and children, pregnant women, 
we're seeing an increase in that particular problem of--you 
know, young women with babies, small children, or who are 
pregnant. And this is just a devastating thing.
    You know, when I was circuit judge, I never will forget 
when these people come to me and--for commitment, or some kind 
of domestic abuse order, and 90 percent of it was 
methamphetamine. And you had some young lady there who was 
admitted for treatment that--you know, with her teeth falling 
out and all this kind of thing. And it was just devastating. 
And that's what I've got a real concern about this. What are we 
going to do about it.
    But, yeah, women are a big problem. Not more so then men, 
but the idea that more women are becoming criminals because of 
this particular drug than any other, because of the--one other 
thing, Congressman, that--it's not really a teenage drug, but 
it's--you know, we have them as young as 9 or 10, but the vast 
75 percent, I think, of the people who are committed or 
admitted for treatment fall within the age range of 20 to 45 
years of age. We have some older.
    What really concerns me is because of that age group and 
the devastation to the family and other things that this stuff 
is causing, I see a potential for real explosion in the number 
of people going into nursing homes at an earlier age and a real 
devastating effect on the Medicaid funds that we have, because 
we don't--in Arkansas, we don't spend any Medicaid funds per se 
on substance abuse treatment, but it could become a real source 
of problems when those people become dysfunctional and end up 
in a nursing home.
    Mr. Boozman. One other thing, and I'll then let Chairman 
Souder continue. The Oklahoma law, has it been in effect long 
enough to know if being a State that borders, are we seeing 
more people--David, you're in Fort Smith, Mr. Gibbons, are we 
seeing more people crossing the line to buy product in Arkansas 
and then taking it back to Oklahoma, or do we not know yet?
    Mr. Gibbons. Congressman, there's always been a real 
permeable membrane there between Oklahoma and Arkansas. I did 
talk with a State police drug agent last night, and I asked him 
that very question. He indicated to me that, yes, he seemed to 
think that there were more and more people coming over, but he, 
obviously, didn't have any hard facts on the affect of that was 
having, or something like that. But, again, you know, he--that 
was his impression.
    Mr. Boozman. Something's happening because the statistics 
that you quoted were pretty dramatic.
    Mr. Gibbons. Yes, they are.
    Mr. Boozman. David.
    Judge Hudson. I can't clarify anything on that.
    Mr. Boozman. Thank you.
    Mr. Souder. I guess if they were purchasing in Arkansas and 
taking it back, there's not a tracking--I think if they destroy 
the packages, you wouldn't be able to tell. Is there a way to 
tell from packaging where it was purchased.
    Mr. Gibbons. I don't believe there is, Mr. Chairman. I 
don't believe so.
    Mr. Rutledge. If they buy it at Wal-Mart, there probably 
is. They track almost everything in sight.
    Mr. Gibbons. But you've got a Wal-Mart man coming.
    Mr. Souder. Mr. Howard, you had a chart in the back----
    Mr. Howard. Yes.
    Mr. Souder [continuing]. With clan labs, so this is over a 
3-year period?
    Mr. Howard. Are you looking at this----
    Mr. Souder. No, actually, I was looking at the map.
    Mr. Howard. Oh, yes. Yes, sir, that is. That map of the 
State of Arkansas is the number of labs seized in 2000 to 2003.
    Mr. Souder. In looking at this, what's unusual about this 
compared to any other meth map that I've seen is the highest 
number is in Little Rock county.
    Mr. Howard. Yes, sir.
    Mr. Souder. In Pulaski and around there. Do you have any 
opinion why that is? Does anybody else have an opinion of why 
that is? It's counter to the national trend.
    Mr. Rutledge. Well, it's three times as big as any other, 
you know, county in the State, approximately. There's 300,000 
people live in Pulaski County. And in the surrounding area, 
there's probably, you know----
    Mr. Souder. But, for example----
    Mr. Rutledge. Out of the 2.7 million, you know, there's a 
pretty good chunk of people right in there.
    Mr. Souder. But, as an example, in Missouri, you wouldn't 
see Kansas City and St. Louis have the biggest meth problem. I 
mean, they don't. So why would it be in the urban, is it not as 
urban? Is it--I mean, I don't have a geographic sense.
    Mr. Rutledge. Yeah, it's really not.
    Mr. Souder. Because some of the surrounding counties around 
there, too, are the heaviest counties. You've got--it looks 
like No. 5 and 6 are up here in the northwest, but the top 4 
are right in the Little Rock area.
    Mr. Howard. I agree with Judge Rutledge there. That's the 
population density of Arkansas is that area. Plus, Little Rock, 
you don't have to travel too far out of Little Rock until 
you're in rural areas. And I can't say that has an affect on 
it, but it's possibly one of the reasons. I think the density 
population is one reason.
    Mr. Souder. Yeah. But, for example, in my district, Indiana 
is fifth highest in meth labs. In fact, we're reporting almost 
the same as Arkansas, just a little bit behind, and it's 
unreported as well, because our State police numbers are almost 
twice as high as our Federal number.
    In looking at that, however, my home city of Fort Wayne has 
had maybe three of 230,000, Elkhart that has a lot, it's about 
a town of 40,000; another town of 30,000 next to it, but you 
get out in the rural areas and exponentially, the number of 
labs increase. And I'm trying to figure out is that what we--in 
Kansas, the biggest problem in Kansas is outside the metro 
areas. In Tennessee and Kentucky, it's outside the metro areas. 
I'm trying to figure out why would it be different in Arkansas.
    First off, maybe these areas are quickly rural, and my 
question would be, are the meth labs outside the city of Little 
Rock or is it just in Little Rock? Is it in the suburban areas 
or is this pattern changing? Another explanation would be 
there's more law enforcement there, so, therefore, they caught 
them.
    Mr. Rutledge. That last explanation is part of it. And I 
think, too, in those places that you're talking about like--now 
Kansas is a little different, but it's just now getting into 
south Arkansas and southeast Arkansas, and those--and in Little 
Rock. If you go back 10 years, there were hardly any there in 
the Little Rock area. Now, you've got the 3-years latest, you 
know.
    And I think what you're seeing is an explosion in and 
around Little Rock. In most of the--Pulaski County itself is a 
lot of rural, even though Little Rock is in the middle of it. 
And I don't have an answer to your question, but that would be 
my supposition is that we've seen a real explosion in the 
urban--in the number of labs in buildings, in homes, in cars, 
in those kind of things, where it used to be everybody hid out 
in the brush, so to speak, like the old--when my daddy made 
moonshine, you know, he wasn't making it in the house because 
somebody might take his house. Well, so what we're seeing is it 
moving into the urban areas. And I think you will experience 
that probably in Indiana as this thing explodes up there.
    Mr. Souder. Yes, I want to state for the record that I'm 
referring to a chart without putting it into the record, and 
people here, this chart shows 709 in Pulaski, 256 in the county 
next to it, so nearly 1,000 in those two counties. And then 
next is--Benton with 174, Sebastian with 143, and Washington 
with 131. But then you come in here with White at 158, another 
one just east of Pulaski at 116, one north at 114, then a 
couple with 72, 83, and 85, and the whole rest of the State is 
under 30. So you have--it looks like almost 65.
    Mr. Rutledge. Now, is that a total for 3 years?
    Mr. Souder. Yes. It's a total for 3 years. And that's a 
tremendous concentration around this population area. Now, do 
you feel that--I mean, maybe what we're looking at is in 
Arkansas being more mature in meth where it's been evolving 
toward that. Can you tell whether that trend has increased 
toward the latter part of 2003 as opposed to the first part?
    Mr. Howard. Yeah, I think the records reflect that. If you 
went back to, say, 1995 and compared the number of meth labs in 
just, say, Pulaski County, it's going to be an increasing 
number. And probably increasing at an increasing rate. That 
would be my guess, if you went back and looked at the figure 
for each year leading up to 2003.
    Mr. Souder. In other words, it might start in rural areas, 
but then it will move into Fort Smith and Sebastian and Benton 
are populous counties, it will start to move to them, and then 
when it hits Little Rock, it just goes exponentially.
    Mr. Howard. Yes. And----
    Mr. Souder. I mean, 708 is just a huge number compared to 
the other counties around.
    Mr. Howard. And just a few years ago, down in the southwest 
corner, Miller County, shows 74----
    Mr. Souder. Uh-huh.
    Mr. Howard. Not that many years ago, there were one or two 
labs. And now it's moving in the south.
    Mr. Souder. And when you see a trend toward more labs, do 
you also then start to see a bigger lab where you would see--
instead of an ounce, do law enforcement start to see guys 
banding together where you have more lookouts as opposed to an 
individual? I mean, is there a logical progression as the 
market builds, large organizations start to move into the 
market, and then trafficking organizations will move in? Or do 
you see the reverse, as the traffic organizations are in 
selling the stuff and then they decide to cook it themselves? 
I'm just wondering if there's a pattern to those in reality.
    Mr. Rutledge. I don't know.
    Mr. Howard. I have an opinion on that. You have isolated 
incidents where folks have large mom and pop labs, but I'm not 
sure if--David, is there a pattern at work.
    Mr. Gibbons. I haven't seen one. When I first started--when 
I first recognized this problem, I tried to make it that way. I 
tried to make it an either/or, you know, either it's 
distribution or it's manufacture, and I didn't see that. We had 
a big distribution organization from the State of California, 
Tulare County, California, into Pope County, and it didn't seem 
to have much effect on the lab, you know, either people who 
make it, you know, or distributed it. And the connection 
between Tulare County, California, and Pope County, Arkansas, 
was relatives. You know, just happened to be someone who had 
relatives back in Russellville and was coming here to meet with 
relatives. And it was a tremendous amount.
    Mr. Souder. Mr. Howard, do you have any suggestions for how 
you deal with 1,000? How are you going to deal with this? Your 
backlog is 1,000?
    Mr. Howard. It is. And one thing that we're looking at is 
our analysts are conducting some training with crews at the 
Criminal Justice Institute to educate the first responders on 
dealing with meth labs and also in sampling and packaging. And 
we're hoping that through that, we're going to decrease the 
number of times our guys have to respond to the field. That 
would increase the time that was spent in the laboratory 
actually analyzing cases.
    We've discussed a little bit involving the Criminal Justice 
Institute in further training of meth certified personnel. 
Right now in Arkansas, in order for a person to be trained to 
be meth--clan lab certified, you either have to attend training 
in DEA headquarters in Quantico, which is a long waiting 
period, waiting list, and/or wait on the Arkansas State Police 
to put on a training program for certification or 
recertification. And those are the only two sources for having 
folks certified to enter these labs. So if--and this has just 
been a talking stage.
    If we could get the Criminal Justice Institute involved in 
training and certifying these folks, it would increase the 
number of people available to respond to these labs. And from 
the laboratory standpoint, that would increase time our guys 
can spend--and our girls, can spend in the lab.
    Mr. Souder. Are you the biggest problem with congestion in 
the judicial system? I don't mean you personally.
    Mr. Howard. Yes, I know what you mean.
    Mr. Souder. Because your testimony is that some people will 
be on bond, and they'll be arrested for additional crimes 
before they come to the charge, and the question is that the 
sheriff's got his people tied up sitting out there where 
they're not able to arrest other things when they're sitting 
out there a long time. But then once he gets all the 
information in, I mean, in some places, because we don't have 
enough judges, we don't have enough U.S. Marshalls to move the 
people around, we don't have enough prisons to put the people 
in, we don't have enough prosecutors to prosecute. We have all 
those different things, but are you so backlogged that you're 
now the problem in the system.
    Mr. Howard. That's part of it. There's a bottleneck there, 
but there's also a bottleneck in the judicial system with 
enough cases that are on--you know, waiting to be tried there. 
And in some cases, and I can't give you specific, but it's not 
uncommon for a person to be arrested for manufacture of 
methamphetamine and bond out and, literally, 10 days later, 
they're arrested again. There's no way that--I mean, they 
couldn't be tried in that length of time, so--you know, so it's 
a--yes, the crime lab is part of the problem because of the 
backlog, but, I mean--and the backlog not only in the illicit 
lab section but every other section of the State Crime Lab. And 
it's a problem with crime labs nationwide. It's not just 
limited to Arkansas.
    But, yes, we are a problem, but part of it is these folks 
are out there, as soon they can hit the door, they're at it 
again.
    Mr. Souder. Does the bond go up?
    Mr. Howard. Yes.
    Mr. Souder. They increase the bond limits each time?
    Mr. Rutledge. This is a real problem, and I found this when 
I was a prosecutor and judge, I think most prosecutors have 
across the State. Before that person that manufactures ever 
goes to the pen or gets convicted or pleads or whatever, I'm 
going to guess that they will be arrested three times for 
manufacture and bond out until the bond gets so high that they 
can't do it, and then they go on and plead guilty or something.
    But so often, and you'll find this, and I think David will 
back me up on this, is that the fourth offense is the--you 
committed that before you ever plead or get to trial because of 
the backlog.
    And one of the suggestions that I had put in my proposal 
that may or may not have anything to do with your committee's 
responsibility is the idea of requiring as a condition of bail 
that the people with the drug problems, and especially the meth 
problems, be restricted and be required under the threat of 
being incarcerated quickly, to go into treatment or to some 
other method where they can be monitored for drug use and--
while they're out on bail.
    Mr. Souder. Uh-huh.
    Mr. Rutledge. Could be a way to get them back to jail if 
they're getting out of the pen.
    Mr. Souder. Yeah. One of problems that we have, and I'll 
conclude with this, or Congress Boozman can, one or the other. 
One of the problems we had that's unlike other drugs, this drug 
is costing taxpayers far more money because if we're having to 
do the drug lab, you're having to do multiple research with it, 
taking more days to prosecute, tying up six policemen at the 
scene, and the people who are doing it probably don't have a 
lot of money that we're going to be able to recapture for 
funding it, so we've got to figure that out, and the bonding or 
a drug test.
    And the way the Federal Government could do it is if the 
State gets any additional money from methamphetamine for their 
drug labs, whatever they have to show that they have a State 
law that will, in fact, not force the American taxpayers to do 
three cases on one guy, when they should have had him the first 
time. That either through a higher bond or a higher risk or a 
drug testing followup or a drug treatment program with drug 
testing, that, basically, says that, ``Yes, we're going to let 
you out, and you are a high reasonable suspect.'' I mean, he 
likes fleeing.
    If you're going to do it, it would be a similar thing of on 
bonding whether this person is going to flee the scene because 
the taxpayers have to go back in there three times to clean it 
up. This isn't free, and he isn't going to pay for it, because 
he doesn't have the assets to pay for it.
    We've got to figure out some creative ways to bring some 
more pressure on them because we can't sustain the dollars to 
do the clean up, and policing and stuff if this thing continues 
to increase at a double and triple rate, how would we even 
begin to do it? Congressman Boozman.
    Mr. Boozman. I just had one last thing. This is such a 
horrible drug mentally and physically. When you look at people 
that have been on the drug for extended periods of time, it 
doesn't take a rocket scientist to know, you know, that normal 
persons become very dysfunctional as you mentioned. You know, 
sometimes for those individuals we're going to have to pay a 
significant cost through nursing care or whatever. We've had 
other drugs that have been very popular.
    I was in college in the late 1960's, early 1970's, LSD, 
some of those things were very popular, and because of their 
side effects, they ran their course.
    I guess the only question I would have is, you-all are out 
there fighting the battle; where do you see this thing? Are we 
this way (indicating) and maybe leveling down a little bit? 
Statistics don't indicate that, but your gut feeling out in the 
field, are we still going straight up or--I'm just going to 
start with you, Mr. Gibbons.
    Mr. Gibbons. Well, Congressman, yeah, it does seem as if we 
are going straight up, and someone touched on it, you know, 
it's an unusual drug in the sense that it appears to be some 
sort of sexual component on the females. The women of our 
society are really drawn to it. When I first started practicing 
criminal law as defense counsel, you never saw a women in 
criminal court. And now, gosh, it's normal and that doesn't 
even account for hot checks or forgery that they--you know. So 
maybe through education, you know.
    Some of the children now, I'm sure, are seeing their 
mothers without keeping their--it's a terrible price they pay 
for this. But it's going to take an effort. I don't see it 
leveling out of its own accord. No, sir, I don't. Not in my 
district.
    Mr. Rutledge. I see a potential for leveling statewide, but 
the problem with meth is the--unlike the LSDs and all those 
other things that you had to buy from somewhere else, you know, 
even--you know, back again to our problem which is you can 
produce this in your bathtub or in your back yard or in your--
you know, with the stuff you can buy over the counter. And you 
can't do that with most drugs, you know. And now we're seeing a 
lot of other club drugs and things like that are equally bad, 
but they don't have the environmental devastation or the 
paranoid destruction that comes with this one.
    Mr. Boozman. Thank you-all.
    Mr. Souder. Thank you very much. The committee will stand a 
few minute's recess for the stenographer to rest her fingers, 
and we can break and recess for 5 minutes, please.
    [Recess.]
    Mr. Souder. The subcommittee will come to order. Will the 
third panel please come forward. The Honorable Mary Ann Gunn, 
circuit judge, Fourth Judicial District; Mr. Larry Counts, 
director of Decision Point drug treatment facility; Mr. Bob 
Dufour, director of professional and governmental relations 
from Wal-Mart; Mr. Greg Hoggat, director, Drug Free, Rogers-
Lowell, Mr. Layne Kidd, president of the Arkansas Trucking 
Association; Dr. Merlin Leach, executive director of the Center 
for Children and Public Policy, and Mr. Michael Pyle.
    [Witnesses sworn.]
    Mr. Souder. Let the record show that all witnesses 
responded in the affirmative. We thank you for your patience. 
As we can tell, we've had a very interesting hearing. We're 
looking forward to your testimony. Your full testimony will be 
in the record. If you want to summarize what you have as your 
written testimony and add any comments on what you've heard 
thus far or stick to your script, either way will be fine. 
We'll start with Judge Gunn.

  STATEMENT OF MARY ANN GUNN, CIRCUIT JUDGE, FOURTH JUDICIAL 
                   DISTRICT, FOURTH DIVISION

    Judge Gunn. Thank you. For the record, my name is Mary Ann 
Gunn, and I'm a circuit judge in the 4th Judicial District in 
Washington and Madison County, and I'm based in Fayetteville, 
Arkansas.
    First, let me tell you, Mr. Chairman, and, Congressman, how 
much I appreciate the opportunity to testify today. It's truly 
an honor and a privilege. And your staff members have been 
wonderful.
    I am the drug court judge for Washington and Madison 
Counties. Now, I will tell you it's on a voluntarily basis 
only. We started with volunteers in 1999. I did not, when 
approached and asked to be drug courtjudge, I was not 
interested. I felt very strongly that if you commit the crime, 
you need to do the time. And I was not sympathetic to drug 
abusers. But I'm still there, as you can tell.
    But our program is a prejudication diversion program. And 
if a person is charged with a felony and has a drug problem at 
all, it is entirely up to the prosecuting attorney to determine 
solely if that person is eligible for drug court.
    Now, if there's any violence in his or her background, or 
if he or she is a trafficker, drug court is shut to that 
person. They're not allowed into drug court. After an extensive 
assessment, psychological assessment through our treatment 
team, and a defendant is approved for drug court, then they're 
transferred over to the program.
    Now, it is a 9-month long program, and it demands a 
lifestyle change. It is a community-based program, and it's a 
privilege for the candidate to be in the program because if 
they successfully complete it and graduate, the charges are 
dismissed. If they're terminated, I send them to the pen.
    Inside that 9 months, they must complete 136 hours of group 
therapy sessions, 148 hours of outside AA or NA meetings, they 
must submit to at least 78 drug--random drug screens, they must 
maintain full-time employment or be a full-time student. They 
have to complete 10 hours of community service. If they don't 
have their GED, they better secure it, or I'm not going to 
graduate them. And if they don't have a valid driver's license, 
they must have their driver's license reinstated. They must 
also complete 36 hours of individual counseling, and whatever 
that counselor recommends, anger management or family 
counseling, they must complete it.
    They also have to do 36 hours of moral reconation classes. 
And after all that is said and done, the lifestyle change 
dramatically, it must be in place, and then I will graduate 
them from the program.
    We currently have a capacity of 108, and we have 120 in the 
program, and 35 waiting assessment. Our retention rate in the 
program is 85 percent, and our recidivism rate is 12 percent. 
These folks, at least the ones that we've graduated, have not 
been subject to recidivism, are paying for their own housing 
and their own food, and their own utilities, as opposed to 
being housed in the penitentiary.
    But I would like to also address with you after what I've 
heard today my opinion on prevention. About 2 years ago, I went 
to a high school, and I was talking to the children about drug 
court. And they were yawning. So I asked them, and this the 
high school, full high school, 630 students, and I asked the 
students how many of them began--either smoked marijuana or had 
been with someone that smoked marijuana. And almost every hand 
went up. And I asked them the same question regarding alcohol 
use, and the same hands went up. When I asked the children 
about methamphetamine, if they had used it or been with someone 
who used it, about a third, a little less than a third of the 
hands went up.
    So I went back recently and determined that the median age 
for drug--for meth use in people that have gone through drug 
court, and we've treated a little over 500 people, is 19 years 
old. Their drug usage began anywhere from the ages of 5 to 13 
or 14. So we started going to the schools, and we have held 
drug court in 13 schools on 22 different occasions. I asked 
every school the same questions that I asked the first school, 
and I get the same answers from the students.
    And I will tell you that the last school we went to in this 
school year, a little boy came to me after it was over, and he 
said, ``My best friend wants me to use methamphetamine. What 
should I do?'' and I said, ``Well, now you understand what peer 
pressure means.'' He had big old tears in his eyes, and he 
said, ``Yes, but he's my best friend.'' And I said, ``Well, 
son, he's not your best friend. Not anymore. He's a drug 
addict.'' And a light went on with this child. And he was--it 
was like--he said, ``You're right.'' He said, ``Thank you.'' I 
knew that he wouldn't try methamphetamine, because it became 
crystal clear to him that it wasn't cool to use meth, that if 
we can reach these children in the schools and teach them that 
drug usage at any age is not cool, and you will find yourself 
sick and diseased, then I think we've reached our goals. And 
I'm out of time. Thank you very much.
    Mr. Souder. Thank you.
    [The prepared statement of Judge Gunn follows:]

    [GRAPHIC] [TIFF OMITTED] T7398.052
    
    [GRAPHIC] [TIFF OMITTED] T7398.053
    
    [GRAPHIC] [TIFF OMITTED] T7398.054
    
    [GRAPHIC] [TIFF OMITTED] T7398.055
    
    [GRAPHIC] [TIFF OMITTED] T7398.056
    
    [GRAPHIC] [TIFF OMITTED] T7398.057
    
    [GRAPHIC] [TIFF OMITTED] T7398.058
    
    [GRAPHIC] [TIFF OMITTED] T7398.059
    
    [GRAPHIC] [TIFF OMITTED] T7398.060
    
    [GRAPHIC] [TIFF OMITTED] T7398.061
    
    [GRAPHIC] [TIFF OMITTED] T7398.062
    
    [GRAPHIC] [TIFF OMITTED] T7398.063
    
    [GRAPHIC] [TIFF OMITTED] T7398.064
    
    [GRAPHIC] [TIFF OMITTED] T7398.065
    
    [GRAPHIC] [TIFF OMITTED] T7398.066
    
    [GRAPHIC] [TIFF OMITTED] T7398.067
    
    [GRAPHIC] [TIFF OMITTED] T7398.068
    
    [GRAPHIC] [TIFF OMITTED] T7398.069
    
    [GRAPHIC] [TIFF OMITTED] T7398.070
    
    [GRAPHIC] [TIFF OMITTED] T7398.071
    
    [GRAPHIC] [TIFF OMITTED] T7398.072
    
    [GRAPHIC] [TIFF OMITTED] T7398.073
    
    [GRAPHIC] [TIFF OMITTED] T7398.074
    
    [GRAPHIC] [TIFF OMITTED] T7398.075
    
    [GRAPHIC] [TIFF OMITTED] T7398.076
    
    [GRAPHIC] [TIFF OMITTED] T7398.077
    
    [GRAPHIC] [TIFF OMITTED] T7398.078
    
    [GRAPHIC] [TIFF OMITTED] T7398.079
    
    [GRAPHIC] [TIFF OMITTED] T7398.080
    
    [GRAPHIC] [TIFF OMITTED] T7398.081
    
    [GRAPHIC] [TIFF OMITTED] T7398.082
    
    [GRAPHIC] [TIFF OMITTED] T7398.083
    
    [GRAPHIC] [TIFF OMITTED] T7398.084
    
    [GRAPHIC] [TIFF OMITTED] T7398.085
    
    [GRAPHIC] [TIFF OMITTED] T7398.086
    
    [GRAPHIC] [TIFF OMITTED] T7398.087
    
    [GRAPHIC] [TIFF OMITTED] T7398.088
    
    [GRAPHIC] [TIFF OMITTED] T7398.089
    
    [GRAPHIC] [TIFF OMITTED] T7398.090
    
    [GRAPHIC] [TIFF OMITTED] T7398.091
    
    [GRAPHIC] [TIFF OMITTED] T7398.092
    
    [GRAPHIC] [TIFF OMITTED] T7398.093
    
    [GRAPHIC] [TIFF OMITTED] T7398.094
    
    [GRAPHIC] [TIFF OMITTED] T7398.095
    
    [GRAPHIC] [TIFF OMITTED] T7398.096
    
    [GRAPHIC] [TIFF OMITTED] T7398.097
    
    [GRAPHIC] [TIFF OMITTED] T7398.098
    
    [GRAPHIC] [TIFF OMITTED] T7398.099
    
    [GRAPHIC] [TIFF OMITTED] T7398.100
    
    [GRAPHIC] [TIFF OMITTED] T7398.101
    
    [GRAPHIC] [TIFF OMITTED] T7398.102
    
    [GRAPHIC] [TIFF OMITTED] T7398.103
    
    [GRAPHIC] [TIFF OMITTED] T7398.104
    
    [GRAPHIC] [TIFF OMITTED] T7398.105
    
    [GRAPHIC] [TIFF OMITTED] T7398.106
    
    [GRAPHIC] [TIFF OMITTED] T7398.107
    
    [GRAPHIC] [TIFF OMITTED] T7398.108
    
    [GRAPHIC] [TIFF OMITTED] T7398.109
    
    [GRAPHIC] [TIFF OMITTED] T7398.110
    
    [GRAPHIC] [TIFF OMITTED] T7398.111
    
    [GRAPHIC] [TIFF OMITTED] T7398.112
    
    [GRAPHIC] [TIFF OMITTED] T7398.113
    
    [GRAPHIC] [TIFF OMITTED] T7398.114
    
    [GRAPHIC] [TIFF OMITTED] T7398.115
    
    [GRAPHIC] [TIFF OMITTED] T7398.116
    
    [GRAPHIC] [TIFF OMITTED] T7398.117
    
    [GRAPHIC] [TIFF OMITTED] T7398.118
    
    [GRAPHIC] [TIFF OMITTED] T7398.119
    
    Mr. Souder. Mr. Counts.

   STATEMENT OF LARRY COUNTS, DIRECTOR, DECISION POINT DRUG 
                       TREATMENT FACILITY

    Mr. Counts. Thank you. For the record, my name is Larry 
Counts. I work as the executive director at Decision Point. 
We're an alcohol and drug treatment center located in 
Springdale and have a catchment area of residents of about 
353,000 people. I've been with the agency since 1998, and this 
past year we've treated more folks in our agency than we had by 
history and just a little over a 1,100. And since 1998, over 
5,000 addicts have come through our facility for treatment.
    I would like to first make a comment in regard to 
Congressman Boozman's question before. After listening to the 
two panels previously, I do believe that the effort and the 
work put into this problem of methamphetamine, which it 
certainly is an epidemic, we will stem the tide a bit. I think 
by history, looking at something as simple as the Harrison Act 
in 1914 and trends from 1953 to today, drug trends have come 
and gone, but it always seem like another drug will come and 
take its place.
    And I think that is part of what I would like to bring to 
the public today is a message, and that is one of the message 
just looking and focusing more on the disease of addiction 
rather than a specific drug. And I'm saying that to--I know 
that in our drug courts and our treatment facilities, I see 
time and time again people coming in looking at methamphetamine 
as the problem, but they--they don't choose to stop smoking 
pot, or they don't choose to stop drinking alcohol, or they 
don't choose to stop using other substances. So, again, we're 
seeing more poly substance than we are anyone coming in just 
simply using methamphetamine and having to work with that.
    Right now, I guess, too, like everyone else, we need more 
funds, and we look at the distribution of the drug control 
policy, we're only getting about 32--a little over 32 percent 
to divide up between treatment, prevention, and research in 
this effort. And it's really not adequate enough for the 
numbers that are coming in and demanding treatment where even 
our own governmental studies are reporting that up to 48 
percent of the people that need treatment aren't getting it.
    We're looking--today I was looking, and certainly the 
statistics have already been spoken, and I know certainly there 
are crimes in relation to drugs in terms of the manufacturing, 
the selling, the adolescence and certainly the harm put to 
that. And I do know that also in this--in our efforts, there 
were I found 1,498--1,498,000 children of drug addicts locked 
up or incarcerated in the United States in one form or fashion. 
I would say that the majority of these are certainly treatable. 
I hear that. And certainly 80 percent of those locked up in our 
facilities have the problem either directly or indirectly 
related to drugs. And having years of working in this field, I 
do know that it is treatable.
    I hear a great deal about intervention, and I would like to 
ask again in regard to policy, studies have repeatedly shown 
through NADA, through Samsul, through Seaside, that a person 
who is--has a family history, which is a great predictor of any 
illness to include alcoholism and drug addiction, that we--we 
are not allowed by prevention to focus on that. We do a great 
deal of broad based prevention, but we know that there is a 
high risk of kids out there that have the potential to become 
addicted, but we're not able to target that, much like say that 
they do in HIV, AIDS, and STD prevention. And I think that to 
the job, your drug courts, treatment, what really, everybody is 
doing is remarkable, given the conditions and the funding. But 
one of the things today, too, is that certainly with treatment, 
we're really charged, as Judge Gunn certainly pointed out, that 
to treat a chronic illness with an acute intervention, we need 
to be able to get at the families to work in those areas of 
social skills such as education, jobs and finance. We're not 
seeing adults who come in that made adult decision to use; 
we're seeing children or adults coming in who have 5, 10, 15 
and 20 years of drug use without really any period of 
abstinence and not even recognizing it as a disease.
    Again, I appreciate your time in allowing me to speak. I, 
too, think it's been an honor and a privilege. Thank you.
    Mr. Souder. Thank you.
    [The prepared statement of Mr. Counts follows:]

    [GRAPHIC] [TIFF OMITTED] T7398.120
    
    [GRAPHIC] [TIFF OMITTED] T7398.121
    
    [GRAPHIC] [TIFF OMITTED] T7398.122
    
    [GRAPHIC] [TIFF OMITTED] T7398.123
    
    [GRAPHIC] [TIFF OMITTED] T7398.124
    
    [GRAPHIC] [TIFF OMITTED] T7398.125
    
    [GRAPHIC] [TIFF OMITTED] T7398.126
    
    [GRAPHIC] [TIFF OMITTED] T7398.127
    
    Mr. Souder. Now we go to Mr. Dufour.

     STATEMENT OF BOB DUFOUR, DIRECTOR OF PROFESSIONAL AND 
          GOVERNMENT RELATIONS, WAL-MART STORES, INC.

    Mr. Dufour. Thank, Mr. Chairman. On behalf of Wal-Mart, I 
would like to thank you and both Congressman Boozman for 
inviting me to appear before you today to speak about the 
methamphetamine crisis in our country.
    Currently, Wal-Mart, which, as you know, is based in 
Bentonville, Arkansas, we operate stores in all 50 States, 
Puerto Rico and nine foreign countries. We currently employ 1.2 
million people in the United States and 330,000 people in other 
countries. Unlike many of the drugs that are abused, 
methamphetamine, as you heard today, can be made using common, 
low-cost products and supplies that are widely available. For 
this reason, Wal-Mart has taken a keen interest in the 
methamphetamine issue. Our challenge is to meet the needs of 
legitimate customers while preventing the proliferation of 
abuse of these products.
    In 1998, Wal-Mart entered into a partnership with local law 
enforcement and the Drug Enforcement Administration to help 
fight against this threat of methamphetamine production. At 
that time, Wal-Mart voluntarily placed a register limit of 
three packages of product to be purchased if it contained the 
active ingredient pseudoephedrine. Pseudoephedrine, as you 
know, is used to treat nasal congestion, and it is found in 
many cough and cold products that are widely available. 
Millions of Americans each year at one time or another have 
legitimately used these products to get relief. Unfortunately, 
pseudoephedrine is also the primary precursor used to make 
methamphetamine. Today, these Federal limits are in place. 
There's also a growing number of States and also local 
communities that have even higher restrictions on these 
products. Wal-Mart has taken an active role in working with 
lawmakers and agency officials across the county to insure 
these restrictions are appropriate and effective in our stores.
    Methamphetamine, though, continues to grow in areas of our 
country. Wal-Mart has responded in these areas of growth by 
further restricting access to pseudoephedrine. Currently, in 
over 500 Wal-Mart stores across the country where we have 
noticed high theft or unusual sales trends, we've taken single 
entity pseudoephedrine and put it behind the prescription 
counter. Customers must ask for these products from a member of 
our pharmacy staff, and these products are only available when 
the pharmacy is open. Wal-Mart recognizes the inconvenience 
this is to our legitimate customers, but this action 
underscores our commitment to work with the DEA and other 
agencies on this issue.
    We also found in 2003 that larger pack sizes were a primary 
target for many people wanting to produce methamphetamine. At 
that time, Wal-Mart responded with our Wal-Mart stores 
voluntarily discontinuing to sell the 96-count pseudoephedrine. 
When we did this, we also kept the three package limit in 
place, and our largest packet size was 48 count. This, in 
effect, reduced by half the amount of pseudoephedrine you could 
purchase at a Wal-Mart store. Our Sam's Club took a similar 
action. While they kept the 96 count, they limited the quantity 
to two, and this late March has reduced the quantity to one.
    Not all of our actions at Wal-Mart have been focused on 
restricting sales of pseudoephedrine. We've also made 
significant efforts to educate both our associates and our 
customers regarding methamphetamine. Wal-Mart cashiers as part 
of their training are shown computer simulation of a 
transaction that attempts an above-threshold purchase of 
pseudoephedrine. The cashiers were then asked how to respond to 
the situation. Our customers who try to purchase more than 
three products or less in restricted areas may not understand 
why they can't purchase more than those three packages. In 
order to address this issue, this February, we teamed up with 
the Partnership for a Drug Free America to provide information 
for them. Currently, each time a register limit regarding 
pseudoephedrine is triggered, a small informational slip is 
printed at the register. This slip can be handed to the 
customer by the cashier. It informs the customer of the 
pseudoephedrine limit and directs them to the Partnership's Web 
site where they can learn more about pseudoephedrine and 
methamphetamine.
    We are committed to finding ways of limiting access to 
these products and the illegal use of methamphetamine 
production, but also finding ways to keep these products 
available for the legitimate customers.
    We appreciate the opportunity to participate today, and we 
look forward to working with the subcommittee as we work on 
this issue. Thank you.
    Mr. Souder. Thank you.
    [The prepared statement of Mr. Dufour follows:]

    [GRAPHIC] [TIFF OMITTED] T7398.128
    
    [GRAPHIC] [TIFF OMITTED] T7398.129
    
    Mr. Souder. Mr. Hoggatt. I believe it was your testimony I 
referred to earlier of the people in the trees.

  STATEMENT OF GREG HOGGATT, DIRECTOR, DRUG FREE ROGERS-LOWELL

    Mr. Hoggatt. Yes, sir, it was. And I wanted to thank you, 
Chairman Souder, and, Congressman Boozman, and this 
subcommittee for allowing me this opportunity to speak to you 
today. On behalf of the RogersLowell area Chamber of Commerce, 
I'd like to welcome you to our community. You may have noticed 
Benton County and all of northwest Arkansas are enjoying 
tremendous growth and prosperity. We've been recognized as one 
of the fastest growing areas in the Nation. We have three of 
the global leaders in their industries in our midst: Wal-Mart, 
Tyson Foods and J. B. Hunt.
    On the surface, we are a booming metropolitan area. 
Underneath the surface, we are quietly experiencing the 
economic and the human impact of a very dangerous and defiant 
monster, that being methamphetamine. In less than 10 years, 
methamphetamine lab seizures in Arkansas have skyrocketed from 
54 meth lab seizures to over 1,200 meth lab seizures, according 
to our State Crime Lab.
    Each year that passes brings an increased number in these 
labs. Our jails are filled with felons charged with crimes 
related to methamphetamine. Our social services are ill-
equipped to handle the effect methamphetamine has had on our 
families. Gentlemen, if it can happen here, it can happen 
anywhere.
    By now, you have heard from the law enforcement perspective 
of the impact of methamphetamine, and I would like the 
opportunity to describe the effect it has had on our community. 
And to do so, I would like to share two examples with you.
    As a family, you have lived in your home for years. You 
have raised your family, your kids have gone to school, and you 
attend church every Sunday in this peaceful little town. But 
now you find yourself uprooting your family and hastily moving 
miles away, not because of greater job opportunities, but, 
rather, out of fear. Fear for your life and fear for the lives 
of your family. Within the past week, a meth lab was discovered 
on your neighboring property. Not a mom and pop operation, but 
a large, well-equipped compound where night vision and security 
cameras are utilized or armed guards put in trees and where a 
veritable arsenal of semi-automatic weapons and explosives are 
used to protect the operation. The alleged operators of this 
meth lab are now out on bail, and all your neighbors are living 
in fear that they may be considered informants. The entire 
neighborhood is forced to leave their homes and the lives that 
they have become accustomed to because of fear of retaliation 
by a small militia of methamphetamine producers. No one in this 
country should have to live in such fear.
    My final example is focused on the greatest of all victims 
of methamphetamine, the endangered children who are exposed to 
methamphetamine use and manufacturing. Our resources have been 
taxed to the limits, and innocent victims of this supposed 
victimless crime, children who do not go to school; children 
who are not fed and taken care of; children who learn and 
participate in the process of manufacturing because that's what 
their parents do; children who are exposed not only to toxic 
chemicals and potential explosions but are also exposed to 
sexual and domestic abuse and live in the filthiest 
environments you could possibly ever imagine. One local child 
was discovered in a meth lab with their nose crusted shut by 
repeated nose bleeds due to the inhalation of toxic chemicals. 
Another local child was given methamphetamine in a nursing 
bottle in hopes that it would stop him from crying.
    Children born in our community are testing positive for 
methamphetamine, and children are dying because of it. Our 
communities need help. We need your help. Our communities must 
be mobilized to combat the demand for illegal use. We must 
teach our leaders, or businesses, our schools, our churches, 
and our families how to stop methamphetamine before it starts. 
We must arm our communities with the tools that they need to 
fight when methamphetamine ravages their infrastructure. The 
cost of human lives and families is much too high. Meth will 
not go away on its own. The only way that we can successfully 
defend our communities against meth is to arm them with the 
proper resources.
    I ask the subcommittee to reexamine the current drug policy 
and its initiatives. Please allocate more desperately needed 
resources to local communities to fight their wars against 
methamphetamine. It is the local communities that will put up 
the strongest fight in the war on meth because they have the 
biggest incentives to win.
    I strongly urge you to recognize and respond to the 
destruction that methamphetamine brings to lives and families 
of our small and middle sized communities across the country. I 
challenge you to actively be involved in finding solutions to 
this problem before it continues to grow and further damage the 
quality of life that we have come to expect in northwest 
Arkansas and similar communities all across the country. I 
commend you for taking the time to come here and consider this 
issue, because that is the first step toward finding the 
desperately needed solutions. Thank you.
    Mr. Souder. Thank you.
    [The prepared statement of Mr. Hoggatt follows:]

    [GRAPHIC] [TIFF OMITTED] T7398.130
    
    [GRAPHIC] [TIFF OMITTED] T7398.131
    
    Mr. Souder. Dr. Leach.

 STATEMENT OF MERLIN D. LEACH, EXECUTIVE DIRECTOR, CENTER FOR 
                    CHILDREN & PUBLIC SAFETY

    Mr. Leach. Thank you, Chairman Souder, and, Congressman 
Boozman. I sure appreciate being here today and the opportunity 
to speak with you. Being this late on the list, I think most of 
my testimony has been covered. I would like to point to my 
written document that the polls in there, and the reason I put 
those polls in there was to demonstrate that the people of 
America, particularly this State, and the people of these 
cities and communities around here are pretty supportive of 
your efforts. And it's very nearly unanimous that people are 
concerned about the future of America and the children are a 
great component of our future.
    As a policy center and as a center devoted to children, we 
see three distinct victims. The first class of victims are the 
adolescents and teens who use the drug. I'd like to address a 
little later why we think that's occurring. The children who 
are exposed to the precursor chemicals and finished products in 
the clandestine labs, and then what we think is the most 
tremendous damaging thing is a baby born addicted to meth 
loving mothers. And that's very prevalent in Arkansas.
    I would like to just sort of dispense with most of my 
document because it is testimony, and address a couple of 
issues that Congressman Boozman and yourself brought up 
earlier. As with other drugs, I think we need to look at the 
larger picture. We live down in kind of the bowels of the rural 
poverty in our policy center. Our people are poor, our children 
are poor, our families are poor. This place up here is 
beautiful. I haven't been up I-540 beyond the airport in 
several months, probably 9 months. Seeing all these new 
buildings, this is wonderful. But 40 miles east of here, and 
you will see Appalachia level poverty.
    We have a breast care program that gives free mammograms to 
women without health insurance. The average family income of 
our clients is $11,000 a year. A good job is to get to go to 
work for Wal-Mart; a great job is to go to work for Tyson. I 
should have reversed that for this panel. At some place with 
some health insurance, anything.
    So the driver from our perspective, living in rural 
Arkansas and living in rural poverty, which I've seen rural 
poverty all through the southeastern States, is to make it, 
these meth labs is a proper motive. It turns all crazy because 
it's not that simple because you start becoming your own best 
customer. And eventually you get caught, and you go to prison. 
Or you die because of the chemicals. But the initial process is 
a frustrated, poor people with no way out in their minds. 
There's very poor educational services. I think Arkansas ranks 
46th, 47th in the Nation. I just heard this morning from the 
Governor's Office that we have the lowest rate of college 
graduates in the entire United States. I didn't know that.
    So when we take this poverty, we take this lack of hope, 
and I can turn $2,000 in the next 24 hours without taxes, 
there's a lot of motivation. I can't make that working this 
month at Wal-Mart, and I can't make that much working for 
Tyson's. So there's a profit motive that because the drug is so 
insidious and so tricky, it sucks them into this thing, and 
that's where it all starts going haywire. I think that the 
profit motive includes the Mexican distribution and the active 
war lord and all the other problems.
    So the underlying motive is profit, and the other thing 
that we see in the high schools is this extreme need to be thin 
for girls. One of the side effects of this drug is that until 
it totally crashes your life you lose a heck of a lot of 
weight, and you feel great. Talking to kids that use this 
stuff, they love it. This is not something they're forcing on 
themselves; this is not something that is just peer pressure 
and that.
    But as far as drugs go--I don't use this stuff, never have, 
but as far as drugs go, it's been reported to me that this is 
one of best drugs ever built. And the kids like it. It does all 
sorts of things for them. They're smarter, quicker, better, run 
faster, at least from the inside that's the way they perceive 
it.
    This is a huge, huge societal problem. And when you touch 
on funding it, I think Congress needs to look at all 13 
appropriation bills and say, ``What is the future of America 
worth?'' you know, obviously, homeland security and the big 
issues are always there for us, but I think we need to look at 
what's going to destroy this country in the future. And if we 
keep having low graduation rates, if we keep having babies born 
here in Arkansas going into intensive care, I mean going right 
into Medicaid and all the way into Medicare if they live that 
long, we are creating a far greater tax burden on the next 
generation than any of us want to put there.
    So I would ask that you continue not only what you're 
doing, which is great, I'm absolutely elated that you're here, 
I'm absolutely elated your committee is so committed to this, 
but we also have to look at the problems underlying this 
impressive level of perspective. We have to look at our 
resources, we have to look at hope, we have to look at 
education, and the whole rehabilitation process. You're not 
going to stop this drug by even taking this stuff off the 
shelves of Wal-Mart entirely. I promise you that's not the way 
to cure it. I don't know what the correct way is, but we can't 
fragment this thing. We have to look at it from a whole new 
perspective. My time is up.
    I thank you, sir, for allowing me to be here, and I'm sorry 
if we had to poke a little too hard here.
    Mr. Souder. No. Appreciate that.
    [The prepared statement of Mr. Leach follows:]

    [GRAPHIC] [TIFF OMITTED] T7398.132
    
    [GRAPHIC] [TIFF OMITTED] T7398.133
    
    [GRAPHIC] [TIFF OMITTED] T7398.134
    
    [GRAPHIC] [TIFF OMITTED] T7398.135
    
    Mr. Souder. Mr. Pyle, you're our clean-up person.

                   STATEMENT OF MICHAEL PYLE

    Mr. Pyle. Thank you, Congressman Boozman, Chairman Souder, 
for this opportunity to share with you my battle with drug 
addiction and my road to recovery.
    Thanksgiving weekend 1998 was the first time I used 
methamphetamine intervenously. Like many tragic stories of 
addition, my life quickly spun out of control. I lost a well-
paying job, a marriage of 7 years, and my mortgage was 
foreclosed. I traded my personal possessions to feed my $100 a 
day habit. I eventually lost my freedom. For the next few 
years, whenever I was incarcerated, I swore I would never go 
back to the drugs. Every attempt to get clean on my own failed, 
and I got deeper into a criminal lifestyle.
    On March 18, 2002, I was arrested once again and was 
introduced to the drug court program in Sebastian County. Upon 
release from jail, I was required to report every morning at 8 
a.m. to the State parole and probation office. I began my drug 
court program by attending three group counseling sessions, 
three narcotics anonymous meetings, and three random drug 
screens per week. In addition to this normal drug court 
schedule, I also had one-on-one counseling sessions. I was also 
required to obtain and maintain employment. In addition to all 
these requirements, I was subjected to random at home visits by 
representatives of the drug court whom were allowed to search 
my living space at their discretion. I was forbidden to 
communicate with any criminals or people I used to associate 
with. Violations of any of the above requirements subjected me 
to drug court sanctions or dismissal from the program.
    This strict supervision did not allow me the opportunity to 
fail or slip up. The program allowed me to recognize the 
situations and people that threatened my recovery. In previous 
attempts to get clean on my own, I had been introduced to 
Narcotics Anonymous and was unable to use the program for more 
than a few months without falling back into my old patterns. By 
requiring me to attend three Narcotics Anonymous meetings a 
week, drug court forced me to be disciplined enough to develop 
the foundation of NA principles that I live by to this very 
day. I'm grateful to NA for showing me the way to live without 
drugs and alcohol, and I am also grateful to drug court for 
requiring me to attend these meetings until the program became 
a cornerstone of my life.
    During my drug court journey, I saw many people fail to 
live up to the requirements. Many were punished with county 
jail time and community service, while others were removed from 
the program and sent off to prison. The Sebastian County drug 
court's graduation rate is similar to the national average 
where very few make it through this strict regimen. However, 
for the few that go on to graduation, it means that a new 
chance at life that did not exist a few years ago.
    In drug court, we're given tools and education that allow 
us to end the cycle of addiction. It's like being a cancer 
survivor who is in remission. My addiction is still a part of 
me, and I require treatment through my NA program, but I am 
able to live a healthy and productive life.
    I have been clean of both drugs and alcohol since March 18, 
2002. I went back to school and recently graduated from the 
University of Arkansas Fort Smith with a bachelor's degree in 
business administration. I am currently looking into attending 
graduate school. I have maintained steady employment since my 
release from county jail, and I am proud to say that I'm paying 
my taxes. I maintained a 3.8 GPA and was active in many school 
organizations. On graduation day, I was honored to receive the 
College of Business Student Service Award for my dedicated 
service to the college. This award is especially important to 
me because service to my community is one of the core 
principles I try to live my new life by. It is one of the 
primary reasons why I'm here today.
    I would like for the public and the lawmakers to know that 
the old adage, ``Once an addict, always an addict,'' does not 
have to be true. Alternative sentencing programs like drug 
court do work. The lock-them-up mentality and throw away the 
key is not the answer. Had I gone to prison or just gotten a 
suspended sentence, I don't believe that I would be before you 
today. To put a drug criminal through drug court costs a few 
thousand dollars a year, while housing them in a penitentiary 
with violent hardened criminals costs tens of thousands of 
dollars a year. From a purely economic standpoint, it makes 
sense to try to save these addicted souls. I do, however, 
support sending drug criminals like myself to prison as a last 
resort. I believe that the threat of going to prison helped me 
to recover.
    For years our Nation's policy of fighting the war on drugs 
has involved increasing the sentences of drug criminals, and we 
have continued to build more and more prisons at great expense 
without much success at winning this war. Drug courts and other 
alternative sentencing programs attempt to win the hearts and 
minds of the addict. We spend billions of dollars a year as a 
Nation burning fields in South America trying to stop the 
supply of narcotics, but spend very few dollars on the demand 
side of business.
    If my story can help an addict find recovery I believe that 
I am helping as much or more than any covert operation can do 
with winning the war of drugs. I know that I personally 
decreased the demand for methamphetamine in western Arkansas by 
over $100 a day. For many drug criminals, there is a pattern of 
bouncing in and out of prison. The only solution that makes 
sense is drug court. A study commissioned by the State of 
Oregon found that for every dollar spent on these programs, a 
savings to society is 10 times that amount. Another California 
study found that for a $14 million investment in drug courts, 
there was a total cost avoidance by the State of $43 million.
    I recently read an article by the Institute for Applied 
Research that I'd like to quote. ``What you learn in drug 
courts, which involve treatment for all the individuals and 
real support, along with sanctions when they fail, are a more 
effective method of dealing with the drug problem than either 
parole or probation.''
    Thank you, and God bless you.
    Mr. Souder. Thank you.
    [The prepared statement of Mr. Pyle follows:]

    [GRAPHIC] [TIFF OMITTED] T7398.136
    
    [GRAPHIC] [TIFF OMITTED] T7398.137
    
    [GRAPHIC] [TIFF OMITTED] T7398.138
    
    Mr. Souder. Judge Gunn, are people who go through your drug 
court program, are they voluntary? In other words, do they have 
to agree or are they assigned?
    Judge Gunn. Oh, no, they have to agree. It's a voluntarily 
program. You mean for the candidate coming into drug court.
    Mr. Souder. Yes.
    Judge Gunn. Yes, sir. Yes, Mr. Chairman. Sometimes they 
have the choice of probation, OK, on a first offense, small 
amount of marijuana, or something like that, or they have the 
choice of going to the penitentiary, but it's strictly a 
volunteer program.
    Mr. Souder. That varies from courts, certainly.
    Judge Gunn. Yes, sir, they--yes, Mr. Chairman, they do 
vary.
    Mr. Souder. In your graduation, what percentage of people 
who start the program finish the program?
    Judge Gunn. Eighty-five percent.
    Mr. Souder. So eighty----
    Judge Gunn. So far. That start the program and finish it.
    Mr. Souder. Finish it.
    Judge Gunn. Is my retention rate.
    Mr. Souder. Graduate.
    Judge Gunn. Yes, sir.
    Mr. Souder. From the program.
    Judge Gunn. That's correct. Eighty-five percent.
    Mr. Souder. And when you say you have a 12 percent 
recidivism, is that over--how long do you track?
    Judge Gunn. We track every 6 months on every person that's 
ever been in drug court.
    Mr. Souder. And how long have you had the drug court?
    Judge Gunn. Full-time for 3 years; part time in 1999. So 
about 5 years.
    Mr. Souder. Mr. Pyle, when you went through the program, 
you alluded at the tail end that had you not had the threat of 
going to prison, you're not sure it would have worked as much. 
Had you gone through any drug treatment programs before? You 
said you had tried on your own to stop in Narcotics Anonymous, 
and stopped going. Had you been through a drug treatment 
program, multiple-treatment programs?
    Mr. Pyle. I did an outpatient treatment before for 
marijuana use, before I ever tried methamphetamine previously. 
Unfortunately, the way my disease progressed, it always ended 
the same way, with a multiple months stay in the county jail. 
My cycle of addiction always ended that way, and it always 
ended with me swearing that I going to kick this thing and go 
to meetings. And without that constant supervision, I can lie 
to you, I can lie to my family, I can't lie to a urine--you 
know, dip stick in the urine test.
    Mr. Souder. Do you know other meth users?
    Mr. Pyle. I try not to associate with them anymore.
    Mr. Souder. No, no. But when you were doing drugs, you got 
to know other meth users?
    Mr. Pyle. Yes.
    Mr. Souder. Do you know any who didn't start with 
marijuana?
    Mr. Pyle. Marijuana, you know, I've heard that argument 
it's a gateway drug, and I truly believe it leads to other 
things, if the addict is inclined. You know, me personally, I 
was always looking for something new.
    Mr. Souder. There are some drugs where you can skip 
marijuana. I just haven't heard that meth is one that you can 
skip marijuana. Some people go to OxyContin without having----
    Mr. Pyle. Well, I'm not an expert on the nature of 
addiction, and, you know, every individual's case is----
    Mr. Souder. But as far as you know, everybody you knew who 
did meth also had done marijuana and were looking for a better 
fix?
    Mr. Pyle. The come down off of methamphetamine is very 
difficult, and one of the ways that's used to come down is to 
smoke marijuana.
    Mr. Souder. Would alcohol do that to you?
    Mr. Pyle. Yeah. Yes. I was never a drinker.
    Mr. Souder. How did you get introduced to meth? You didn't 
cook it.
    Mr. Pyle. I eventually progressed into running with some of 
the people he was describing in his--I forgot the name of your 
piece about, you know, the little organization that thought it 
was, you know, organized crime, but, really, it was just a 
bunch of addicts that were having some dreams of easy money. 
But I spent a great deal of time in my early addiction to 
methamphetamine, just simply selling off the possessions that 
I'd accumulated through my life. And then I eventually reverted 
to crime because it was the only way to feed my habit.
    Mr. Souder. And then once you reverted to crime, did you 
eventually start cooking because you couldn't afford it or 
because you needed to sell to raise money?
    Mr. Pyle. In my written testimony or--I mean, I talk about 
the fact that I saw it as the--as manufacturing as the only way 
for me to sustain my usage and pay for this lifetime of 
addiction that was a full-time job.
    You know, there were many days when I was a gopher that I 
visited every Wal-Mart, sometimes multiple times, you know, and 
it's a little step that limiting the pills to two or three 
packages, but, you know, a paranoid drug addict doesn't like to 
break out his driver's license at the pharmacy counter. So we 
started looking for other ways to get the quantities of 
ephedrine. And you alluded earlier to--I took a couple of 
trips, overnight trips, to Chicago, IL, because I could walk 
into a Walgreens in suburban Chicago and buy ephedrine by the 
case. Buy $800 and $900 worth of generic pseudoephedrine pills 
in Chicago because they don't have a methamphetamine problem. 
So--and, you know.
    Mr. Souder. Who tipped you off to that?
    Mr. Pyle. That was actually a career criminal from your 
State, sir, who was--who had heard some time down, and he 
actually encouraged many of us to try to move to Indiana where 
the grass was greener, he said. So--I think he's doing Federal 
time right now.
    Mr. Souder. You said you were looking for a constant, 
better high. When you got to the meth, did you still want to 
seek a better high or was this plenty high?
    Mr. Pyle. That was all I needed. That was--after putting 
meth intravenously with the help of another junkie, I leaned 
back on the couch and then looked at my wife--my then wife, and 
said, ``Darlin, you've got to keep me away from this. This will 
kill me.'' It was like a foreshadowing of what was to come.
    The next few years, you know, I lost 100 pounds, I lost 
everything that meant anything to me and betrayed my family. 
And I--my wife--my life was saved through the drug court 
program.
    Mr. Souder. I will ask you one other question. You said you 
were told about Illinois by somebody from Indiana. Was that 
person down here in Arkansas? Is it somebody you knew from 
where--how did that information network get connected?
    Mr. Pyle. Criminals hanging with criminals. These--the 
gentleman who was--I won't call him a gentleman. The criminal 
that I was working for, basically, had done time with a guy we 
called Indy because he was from Indiana, and they associated 
together. We had night vision, we were on a hilltop mountain in 
eastern Oklahoma. And they made us all carry guns. And when we 
weren't--when they weren't cooking, while we were watching, 
they set us up to do gopher runs. Go to Chicago, go to as many 
Wal-Mart stores as possible, go to as many Dollar Generals.
    I think the pill issue, it's a nice effort to try to 
change, but addicts will go to any lengths to get the 
ingredients. And there's also a way that it's in feed. 
Ephedrine is in feed, cattle feed and such. It's not as high 
quality ephedrine that--the pharmaceutical, of course, is 
preferred, but it's a low grade ephedrine that's found in many 
cattle feeds. And you can--it's just in so many things that 
restrictions on it, I don't see, as the answer. You've got to 
end the cycle of addiction.
    Mr. Souder. Let me ask you another question. If we called 
them up, other guys who were in your gang, and put them into 
Judge Gunn's drug court, do you think they would have the same 
reaction as you? In other words, how much of this is that you 
were ready? I mean, I'm a big supporter of drug courts. 
Actually, in my home area, Fort Wayne, Indiana, was one, I 
think, of the first three. In 1996 maybe. And I go to the 
graduations, and I've seen--look, people say 12 percent 
recidivism. Hey, if you can get down to 70 percent, you're 
doing pretty good. If you can get it down to 30, you're doing 
pretty good. If you can get it down to 12, you're doing really 
good.
    I'm a big supporter of drug court, but I'm wondering how 
much of this is you had a family that you felt you had 
betrayed, you had a job, you're employable, you clearly now 
were able to go to school. You scored 3.8 at school, which not 
everybody who is a meth addict is going to be able to do. You 
had a support network similarly around you. I think I met your 
father earlier. What do you believe--what's our realistic range 
here?
    Mr. Pyle. I think even if you're saving 10 percent, all 
you're doing is delaying the inevitable which is just sending 
them to an already overcrowded prison. You know, the 
gentlemen--or the people in question, I'm trying to refer to 
them nicely, they were career criminals. Most of them had been 
in an institution. I was different in that respect. I did not 
get involved with criminal activity until getting involved with 
methamphetamine.
    Mr. Souder. You're saying the sooner we catch them, the 
more likely we are to turn them around?
    Mr. Pyle. Yes.
    Mr. Souder. More support network, more likely we're able to 
turn them around.
    Mr. Pyle. I think if they've already gone to prison, 
they're getting to the point where they're set in their ways, 
unfortunately. There are exceptions. You know, one of the 
people that I graduated from drug court with had been down to 
prison four different times. And to my knowledge, I saw him a 
couple of months ago, and he's been clean as long as I have.
    Mr. Souder. Doctor, I notice you work with lots of kids and 
families. What's your reaction to his testimony and how would 
you expand on that to a higher risk, low income, little hope.
    Mr. Leach. Well, No. 1, I would testify that he's telling 
you the truth, because I hear it a lot. Unfortunately, I'm not 
hearing it enough as far as a success story, but as far as 
victims of crime or the activity, it's very exact. You get into 
this malaise and then you find a way out. One of the things 
that I think we need to look at, and it's probably 
congressional, what you're doing is absolutely needed. You 
know, looking at it from a drug perspective, and the DEA 
perspective and the prosecution's perspective, and a rehab 
perspective, but I think we also have to look at is what are we 
doing with the youth of America? What are we telling them? 
Where are they going, you know? And I think this may sound way 
out there to you, but when you look at the Enrons and I've had 
kids tell me, ``Well, if I make enough money to hire the best 
lawyer there is, I'm unconvictible.''
    The kids are really smart today. They're doing some real 
dumb things. But there's a smart generation coming up here, and 
I think we're going to have some spectacular future Congressmen 
and Congresswomen. But the ones without opportunity are just as 
smart in most cases, and they're going to make it. And if by 
hook or by crook, then in my generation you just didn't even 
make it. That was not a choice. You played by the rules.
    Now the people who--and looking at television and looking 
at the news and that, most of the people who really made it 
have some little piece of shade on the side. And so it's a 
society issue, and I'm just going to say if you feel like 
you're frustrated in that you're fighting a huge battle not 
just the drug battle. We're fighting for the morals and the 
ethics of this country. And how the children are looking today 
at public servants, more and more public servants are in the 
Federal penitentiary and more and more public servants are 
getting off with kind of their gold wings.
    And these big corporations, it's a huge, it's a giant 
problem. And I think doing the restricted packaging, all this 
stuff helps, but I think we really need to look at what are we 
doing for the youth now? Because what we're handing them is 
best efforts, and it's just not good enough.
    Mr. Souder. Congressman Boozman.
    Mr. Boozman. Judge Gunn, tell me about the drug court, you 
really do honorable things. Michael was actually a product of 
the Fort Smith court that also does a tremendous job.
    Judge Gunn. Yes, sir.
    Mr. Boozman. You work with people like Michael and help 
bring them around. Tell me about your going to the schools and 
actually taking court to the students in a sense with a 
preventive aspect now.
    Judge Gunn. All right. Thank you. Well, for drug court to 
be successful, you have to be--it takes incredible structure, 
as this gentleman has suggested to you. If someone is non-
compliant, I mean 99 percent compliant, they're before me in 3 
days. I don't accept anything but 100 percent compliance. So 
when we go to the schools, if you--I've got 120 people in my 
program right now, 10 percent are going to have some level of 
noncompliance. And what I'll do is I'll revoke their bond, I'll 
throw them in jail, if they're positive for alcohol, marijuana, 
let alone, heaven forbid, meth, or I put them in residential 
treatment.
    So when we go into the schools, we have a written protocol 
because the security's at issue. And we may have 6th grade--I 
try not to take more than 250 children. And in the school 
gymnasium or auditorium, it takes incredible security because 
you have to separate the children from the felons. Because 
you've got people in jail that are shackled coming up before 
the children, and then I've got people that may test positive 
or be noncompliant that I'm going to throw in jail. OK? Or put 
in residential treatment. And it's a reality check for 
children. It's just a reality check to them.
    And of every person in drug court, I tell them, ``It's part 
of the program, OK, if you come in, we're going to go to the 
schools.'' And they have told me routinely that--perhaps maybe 
not 100 percent of them, but a great many of them have said, 
``If I had seen this when I was 10 years old, I probably 
wouldn't have taken that first joint.'' It's the marijuana and 
the alcohol that are the gateway drugs that I see the most of. 
So, hopefully, it's effective in the schools.
    Mr. Boozman. You're shaking your head, Mr. Counts. You want 
to join in? She was talking about marijuana and the other being 
the gateway drugs.
    Mr. Counts. Again, I----
    Mr. Boozman. Alcohol.
    Mr. Counts. As far as the gateway drugs, I don't see many. 
I think that's an exception rather than the rule that somebody 
would start with cocaine, methamphetamine, or heroin. I mean, 
it's progressive. And I think a great deal of that has to do 
with just simple availability. The more you hang around in that 
environment, somebody is going to have something that you're 
going to be able to try.
    But, I mean, this--in our facility, I think everyone, I 
mean, alcohol is by far the most abused drug in this Nation. 
And, in reality, I mean we're talking about crime again. It's 
up there above anything else. So I think the message to not 
only prevention but that intervention and teaching what 
addiction really is. We've hidden that for years; although 
we've known that since 1954. Even the American Medical 
Association with the message has been Just Say No, but--as an 
example, but there was never a contingency when we know that 
there were going to be children or adolescents who were going 
to be using. And we never offered an alternative that just if 
you made a bad decision, if you made a mistake, you know, we 
understand that, so here's what we can do now. But we just kind 
of left this hanging out there to dry.
    Mr. Boozman. I appreciate your testimony, Dr. Leach. I've 
seen the work that you do and see how hard that you work in the 
centers and things that you participate with and the good work 
that you're doing. It does seem like the effort that Miss Gunn 
is doing, as you mentioned, how society kind of glosses these 
things over. That it's kind of cool to maybe be out smoking a 
joint or doing whatever. It does seem like this type of real 
hard, this is what it's really about with seeing the guy 
shackled. That does seem like that's a reality check.
    The other thing I would like to ask you about is the effect 
this is having on our women's shelters. I've had the 
opportunity to view those with you. Tell me what's going on 
there, Mr. Leach.
    Mr. Leach. Well, one of things this drug does in addition 
to the paranoia and all the medical ramifications, it's a 
deinhibitor. And by deinhibiting, it also breaks down any kind 
of fear of law enforcement, fear of laws, and so forth, and so 
you add a little paranoia to these shelters and stuff, and when 
you're really upset, and you come home, and your wife's giving 
you a bad time, and you're on this stuff, one is the paranoia; 
she's not on your side anymore.
    Two, there's just the sheer devaluing of the judgment 
process where smacking around doesn't mean anything. And, 
three, you have no idea of the intensity. When these people get 
violent on this drug, it's a no joke violence. I'm an old man, 
and I can't imagine what I can do, but I know that if I were on 
that drug, I can do at least twice as much. Whether it's a law 
enforcement officer or my spouse or my child.
    So what you see is greater damage, more irreparable damage 
and greater fear on the part of the victim. In this case, you 
know, there's obviously the female victims in domestic 
violence. We experience mostly female victims. When you have 
that kind of paranoia that's been addressed here today, where 
these people are hanging out with guns and going nuts about, 
``You squealed on me,'' and they're going to kill you. And you 
know their judgment is flawed, and they point a gun, and they 
can kill you. This isn't about morals and ethics or whether or 
not I kill people or not. There are good friends that kill 
people. This is like, ``If I don't kill you, I'm going to 
die.'' And so many women are more inclined to go back out of 
fear.
    Fear is a big factor to go back. Lack of money is another 
factor to go back. There's a lot of other factors that's going 
on as well. But this intensifies that problem. It intensifies 
the child abuse problem with it. In the Children's Advocacy 
Center it is appearing also. So all of these things, it's just 
a complete terrorizing of the family, the family structure.
    This is the most destructive drug I have seen in my life. 
I've been around probably as long or longer than anybody in the 
panel. This stuff is horrendous. It is unbelievably bad with 
what it's doing. It's not like anything else. This drug is set 
at 25 percent of the drug use in America as opposed to all the 
others. This thing is going to get us. Cocaine is tough, but 
cocaine is also for the most part expensive. Heroine is tough, 
but people have figured out heroine for the most part, but it 
is coming back. LSD, that's just some crazy stuff. It's 
floating in and out of the high schools again today, but it's 
not going to go anyplace. But this stuff is real.
    What you're doing today, what you're doing around the 
country, it has to be done. Something has to come of this, 
because this is the most destructive thing of human life that 
we've ever had in this country. Did I answer your question, or 
is that just too brief?
    Mr. Boozman. No, that's very good.
    Mr. Dufour, I really do appreciate the example that Wal-
Mart set. Not only this, I know that you-all are very active in 
the Red Ribbon Enterprises and things like that. You mentioned 
that in high crime areas and shoplifting and stuff that you 
actually put it behind the counter. So you're in a situation 
where you have stores behind, you've got stores without stuff, 
and for all this testimony about the tremendous problems with 
this stuff, is it an unnecessary burden? Is it a tremendous 
burden to the storekeepers, the retailers, if we do put it 
behind the counter?
    Mr. Dufour. It's more of an issue for the consumers, having 
it available for them, because pseudoephedrine is a very 
effective medication for folks' treatment, coughs and colds and 
nasal congestion. So our pharmacists have been educated on this 
issue; they understand it. If our pharmacists in a local area 
believe it is a problem, it's being stolen, or it's being 
abused, they have the opportunity to move it behind the counter 
themselves. So we do it on a store-by-store basis with our 
local folks. But the balance is--it's not readily available to 
the consumer to use.
    Mr. Boozman. Mr. Chairman.
    Mr. Souder. I wanted to, if I can, just followup on that a 
minute. You mentioned that you had some stores and some high 
risk areas. Do you know how many that is?
    Mr. Dufour. It was just a little over 500 the last time we 
surveyed.
    Mr. Souder. 500 that put it behind.
    Mr. Dufour. Yes, sir.
    Mr. Souder. OK. I see. So you said over 500 stores noticed 
high theft or unusual uses. Is that usually law enforcement 
that come to you, or do you notice it internally?
    Mr. Dufour. No, we do an awareness program with our 
pharmacists. They understand. Most of them get it. I mean, 
understand what the issue is. If the pharmacist, if their 
opinion is that the medication needs to be behind the counter, 
they'll make that decision themselves to pull it back. We get a 
survey of our stores to find out how many have done that. From 
the last survey, it was just over 500.
    Mr. Souder. If law enforcement came to you in a given area, 
would you--are the pharmacists contracted out in most cases?
    Mr. Dufour. No, they're company owned.
    Mr. Souder. So if they came to you, you would work with 
local law enforcement as well?
    Mr. Dufour. We have worked with local law enforcement, and 
it's a judgment call on the pharmacists. I mean, if the law 
enforcement agency came in and said, ``Will you put it behind 
the counter in all the stores in the State?'' we would have to 
take a look at that and say, ``Is that reasonable?''
    Mr. Souder. Yeah, they'd have to give you some kind of--I 
was thinking more of county or, I guess, the targeted areas.
    Obviously, we could go on for a long time, and, Mr. 
Hoggatt, were groups like yours--before I do that, I want to 
make a comment on Wal-Mart, because one of the things that 
often is lost when we have a single hearing is the context of 
how many things and challenges you have on these type of 
things, particularly as the largest retailer in the world. But 
we held a hearing down in Houston on baby formula being stolen, 
and Wal-Mart sent a representative down to testify. Because in 
Texas, this is a huge issue. It's spreading into Oklahoma, as 
we heard in Texas, spreading in Arkansas and other areas. And 
it's incredible the millions and millions of dollars in baby 
formula that's stolen in this market, and particularly we have 
some very difficult Al Qaeda network who are funding some of 
their Al Qaeda efforts from stolen baby formula.
    So the next thing is, we're asking Wal-Mart to put baby 
formula in controlled areas where people can't get to it, and 
then the ephedrine, the pseudoephedrine, and it is a huge 
challenge as a retailer how to keep market share when this 
isn't demanded elsewhere and when everybody else isn't doing it 
and when most usage of it is above board.
    We appreciate your working with us and we understand that 
puts extra pressures on your corporation. But literally, in 
Florida, it still astounded me that there are more deaths from 
the Oxycodones and hydrocodones. Legal medications. There are 
more deaths from overdose in those two drugs than there are 
from all illegal drugs combined in that's why the President was 
talking not only about steroid use but legal drug abuse, that 
we're talking methamphetamine is up to 8 percent. Hasn't been--
maybe it was 6, maybe in some areas it's pushing higher, but it 
hasn't really changed nationally as much because we have other 
new things that are coming on, that's abuse of the illegal 
drugs, not to mention the story of alcohol problems, that just 
are overwhelming.
    And this is a much more difficult challenge in the society 
when most of your deaths are coming from legal drugs. And the 
amount of black market money, so to speak, are coming from 
ephedrine, pseudoephedrine, baby formula money, and other 
things, and what kind of pressure that puts on our system to 
sort through. Not to mention the whole Canadian question of 
Internet pharmacies and the competition that isn't restrained 
elsewhere.
    Do you have a followup to that, Mr. Dufour? You looked like 
you wanted to say something.
    Mr. Dufour. Well, I think you said a lot, and it is a 
challenge for retailers to keep up, not only with Federal laws 
but with State and local ordinances. We work very hard at that. 
The one thing that I do appreciate is the cooperation that 
we've had and the partnership we've had with DEA in every case, 
whether it was the agent out of Little Rock or Washington, DC, 
or some other area. We've had very good success working with 
them as well as a lot of the local sheriffs' departments. We 
want to appreciate that cooperation.
    Mr. Souder. Well, we've had a long hearing. I wanted to 
share a couple of things with you and make sure the record 
reflects there have been some statements that haven't been, I 
believe, completely accurate about what the Federal Government 
is doing, and I want to put in context of what we're trying to 
do from our end and how this hearing fits into that.
    First off, it isn't inaccurate to say, as somebody was 
saying Columbia a lot, Columbia and South America represent 
about 10 percent of the Federal dollars. Drug treatment 
represents about 60 to 70 percent of Federal dollars in what we 
do in law enforcement. And State and local law enforcement is 
another chunk of that, counting DEA. But there is a common 
street notion in and around the country that we spend most of 
ours on international, which isn't true, or that we spend most 
on law enforcement, which isn't true.
    Furthermore, most of our funding of drug treatment doesn't 
come through direct Federal funding, it comes through 
indirectly through other programs. Whether it's insurance, tax 
write offs that people have, through mental health assistance, 
through Medicaid assistance. And so in addition to what I said 
was direct Federal, we spend far more in treatment than we do 
in law enforcement intervention.
    Now, depending on whether you want to count State and 
local, which is a whole different thing, including, by the way, 
sentencing laws because we've had this debate, if you wind up 
in jail for usage in the Federal system, you're rare. In spite 
of 60 Minutes, because we've had fencing with 60 Minutes, and 
they edited me out of the show because they didn't like the 
Federal numbers. The fact is, there are only about 600 people 
who are in Federal prisons or in for usage. And most of those 
are negotiated sentences. They couldn't go to nail them for 
distribution, so they went for usage.
    When you hear the sentencing problem for usage, you're 
mostly talking State and local where there's been a 
proliferation. Quite frankly, the Federal Government doesn't 
have prison room, judges, marshals, to lock up the people who 
are dealers. As you heard me say earlier, 400 pounds in El 
Paso. OK? We were having a hearing on a Lakota--on an Indian 
reservation on the Arizona border, they had 1,500 pounds the 
previous year, and I think this was in 2002. So it was 2002, 
they had 1,500 pounds. In January through March they had 1,500 
pounds that they had seized. This is marijuana in addition to 
cocaine that was moving through there.
    During our hearing, because these idiots kept running this 
stuff while we had all these Federal officials there, they 
caught 500 pounds, 400 pounds, 300 pounds, 200 pounds, got a 
700 pound later that day. They had nearly 2,000 pounds running 
through that zone in this particular area. And, literally, they 
don't even mess with arresting a lot of them because our 
borders are, basically, for the most part not very tightly 
controlled.
    Now, the reason I say that is here's the basic from the 
Federal Government approach that we're trying to do. To the 
degree that we can eradicate the drugs--now I'm speaking mostly 
cocaine, heroin, and some degree marijuana, at their source, we 
get it with the least amount of people being damaged. To the 
degree it moves out of the country and into the Caribbean up 
through Mexico, it's spreading out and harder to get. The 
degree it gets in the United States, it's harder and harder to 
get. To the degree it gets into northwest Arkansas, then it's 
proliferated so much that we're dealing with a totally 
different nature of the problem.
    Similar with ephedrine and pseudoephedrine. To the degree 
we can get more controls over in Amsterdam and Rotterdam and 
Belgium, we won't have to worry about every single Wal-Mart and 
whether they're going to 18 Wal-Mart stores, because the stuff 
is mostly coming from one area of the world and from one place. 
And to the degree that we can control our harbors, to the 
degree we can control the entrance levels, once it gets into 
the pharmacy level, it is very difficult, particularly--you 
just are fairly overwhelmed. So we have a percentage trying to 
do that.
    Now, so eradication, interdiction, and then the law 
enforcement question. We are attempting to initiate several 
drug treatment type initiatives. The President has proposed an 
increase in that, and we increased it in the last session. 
We're trying to do it again. We're trying to look for 
accountability programs.
    For example, I'm a big believer, as you said, you know, you 
can't lie in a urine test. And certainly not in the hair 
follicle test, which make it a little more difficult if on top 
there's not any hair. As we do drug testing and have real 
accountability, it isn't to play ``Got ya,'' and throw somebody 
in the prison, the goal is that you're not helping somebody if 
you don't really know whether they're progressing. And you've 
got to put accountability in the systems and drug treatment. 
But we're wrestling, because, clearly, the length of time, 
comprehensiveness, whether there are support groups, and how we 
deal with a more holistic picture in the drug treatment is one 
of our challenges.
    Our prevention programs, quite frankly, are not 
particularly effective. And we're trying to make them more 
effective. We put a whole bunch of new variations into drug 
free schools. I'm still not convinced as a person who wrote 
almost all of the last drug free school laws that it's 
particularly effective or targeted.
    The Community Anti-Drug Coalitions that Congressman Portman 
developed and went through our committee on an attempt to do 
more what you're trying to do at the local level. In other 
words, if you can get activists in the community often who 
either are parents who struggled with it, people in the 
neighborhood who are concerned about it, those people can work 
to help identify and try to reach other kids. I can't tell you 
what a great idea of having the drug court at the schools is as 
part of this effort to communicate the consequences.
    Almost every prevention program, even though they 
understand that the threat only will reach part of the people, 
the fact is, even the most effective--we're going to take them 
to the movies, we're going to play basketball, and we're going 
to do this, and so on, and if you don't, you might go to jail, 
it's always a part of that in having that be part of that.
    And I want to make one other comment on the Just Say No 
program. That, in fact, in the United States from our 
perspective, and I'm just going to say this overtly. As a 
committed Christian, I believe that ever getting rid of the 
drug problem's chance is zero because there's always going to 
be sin in the world. We're never going to eliminate child 
abuse, we're never going to eliminate spouse abuse. The goal 
isn't zero. And if you say you're going to get rid of it, you 
have a false thing. Every day somebody new is exposed, there 
are different problems, and you're never going to eliminate 
sin.
    And with that context, the goal that we have, is we try to 
limit it as much as possible, make it as hard as possible, make 
it as infrequent as possible. And it's true that over the 
course of history, we haven't eliminated drugs, but the fact 
is, we've had some huge up and downs. And, interestingly, the 
Just Say No program from 1981 to 1992, we had 11 straight years 
of decline. From 1992 to 1994, for a variety of cultural 
reasons, including a cutback in interdiction dollars of 75 
percent, including a ``I didn't inhale'' type of an attitude, 
we would have to reduce drug abuse in the United States 50 
percent to get back to 1992 from right now. We had such a 
soaring increase in 2 years.
    So this thing is going up and down when you look at it in 
its totality. Furthermore, I often hear from kids, and I know 
all you hear this, ``Well, why is marijuana illegal? Alcohol 
isn't illegal.'' Well, I doubt if we'd have made it legal, if 
we were starting right now. Second, that we have constricted 
alcohol almost every year tighter. Accountability on bars, 
accountability on drivers, accountability in selling to minors. 
Just like we're choking the tobacco industry.
    Now, you can argue whether marijuana and alcohol have the 
same impact, or whether we'll ever completely eliminate it, or, 
for that matter, whether we're even going to enforce the 
marijuana laws, but the fact is, is that in the structure, we 
have to deal particularly with minors and increasingly in our 
society in usage. Part of the prevention effort needs to be 
targeted toward the clusters and the exposure to drugs, 
alcohol, and tobacco. Marijuana, tobacco, and alcohol as 
gateway type of things. And to refuse or to not acknowledge 
that those things are there when you're dealing with the meth 
question--today we're focused on meth, but, obviously, those 
are the biggest. They also go in waves. And often when you have 
one wave going up, you switch it, and enough alcohol will pop 
up when you reduce marijuana use.
    But right now we're looking--we're at four straight years 
of total reducing of drug use in the United States. So even 
when you say--actually, it's more than four. It's about 6 years 
now--that when you look at something and say, ``We failed,'' 
the fact is, we're making incremental progress. We have this 
huge national ad campaign which is one of our major national 
efforts, that has, in fact, gradually, not dramatically, 
reduced marijuana use in the United States and other drug use. 
Now, under that you'll have bursts of OxyContin, but the total 
amount of people who are abusing drugs right now is down in the 
United States. It's way too high, but if we constantly say, 
``Oh, it's hopeless,'' then why spend money on it; it's 
hopeless. If we're spending all this money and not getting 
progress, then we have a problem. I wanted to give you that 
holistic view.
    In addition, on Thursday, Congressman Portman of Ohio, 
Davis of Illinois, myself, and Congresswoman Tubbs of 
Cleveland, introduced the Criminal Justice Package. The 
President in the State of the Union said, ``We have to look at 
the prison population.'' Here's what's happening with locking 
up. Crime is down in the United States because we took 
criminals off the street. It's pretty simple. Put all the 
criminals in prison, and crime is going to be down, so murder 
rates are down, violent crime is down, and you have it. But 
long term, that's no solution. Short term, it gets the crime 
rate down, but what do we do long term? In that long term, 
these reentry programs right now that we're trying to tackle is 
now that people are coming out, particularly those three and 5 
years from the tough sentencing that we had a few years ago, we 
took them off the streets. So as they come back out, what are 
we doing as a society?
    And so this comprehensive package that, hopefully we can 
pass yet this year, tries to address housing questions, 
education questions, job targeting questions. Things beyond 
just ``OK. You're coming out of prison. Good luck.'' ``Yeah, 
but what if people won't hire me? What if you can't get a place 
to live? What if you can't get in a job training program?'' 
Now, we're not talking about violent criminals here, we're not 
talking about if you go out and you abuse it again. You're 
right. But we have to have a process of reentry if we're going 
to end that, which should start while they're in prison with 
job training, with preparing for reentry, or we as a society 
aren't going to be able to deal with it, and the individual 
isn't.
    What I wanted to give you is an idea because while we're 
focusing on meth, in realty, we're focusing on a whole range of 
things from treatment and prevention and how we make those 
prevention programs more effective, whether it's community 
anti-drug coalitions, whether it's a National ad campaign, 
whether it's efforts in the schools and in the communities. And 
it's treatment programs, in the prison reentry programs, 
whether it's interdiction and so on.
    Now, with meth, the danger here is, and here's the plain 
truth--I also sit on the Homeland Security Committee. If we do 
get our borders better protected and we enable the process of 
protecting our borders better, choke off some of the cocaine 
and heroin and other things that are coming in, then we'll just 
see an explosion of meth. Because unless we've eliminated the 
demand for drugs, which, you know, even if we've reduced it, we 
can produce this drug domestically. And trying to figure out 
what impact that has, because we're going to get better at 
sealing our borders. We're not going to get perfect, but we're 
going to get better at that, which means, in my opinion, meth 
problems are likely to increase because it's something we can 
produce in this country. And we've got to figure out, how we 
balance these laws on the PACs and people moving through. How 
do we get the pseudoephedrine? How do we control that? Are 
there really treatment methods that we treat meth differently?
    And so part of our education process right now is, yes, the 
biggest threats in Arkansas are still marijuana, alcohol. My 
bet is if we looked at it, you'd probably have cocaine here 
pretty heavily, too. But meth is a way, when it's newly 
exposed, of all the media coverage that's occurring, all the 
focusing on it, we have a chance to shape the community 
attitude on meth yet, unlike on marijuana where we're battling 
a community attitude on it. And meth, if we can convince 
people, like LSD, like OxyContin, and some of these, that this 
is evil, that this is an extra great threat, to get ahold of 
this before it explodes even farther on us nationally. And 
clearly in Arkansas, certainly in pockets of Arkansas, you're 
at epidemic proportion, and that's what we heard today with 
this.
    But I wanted to make sure the record reflected and that you 
understood that this is just in the context of a much broader 
fight that we're fighting, and why we're particularly looking 
at meth, and why we're particularly in this area looking at 
meth, because, in effect, you potentially are not only 
modelling to some degree Arkansas and the region, but what 
could happen all over the Nation. Instead of 8 percent, we 
could be looking at 40 percent, and if we start seeing that at 
a National level, how would we even have EPA function, how 
could we have DEA function with the types of the things that 
you're talking about in a State the size of Arkansas? What 
about in Chicago? I mean, my lands, this stuff is bigger in one 
city. Or take Los Angeles where it's three times the size of 
the whole State of Arkansas. We wouldn't even begin to tackle 
it because your resources are just overwhelmingly strained 
here.
    Do you have any final comments?
    Mr. Boozman. Well, I would just like to thank you for 
coming and bringing the committee and would like to thank the 
panel. I know all of you--I know what a tremendous job you do, 
and that you truly are experts in your field. And I'd also like 
to really thank Michael. I think that especially to be willing 
to get up and share what you've been through, what he's gone 
through, and, yet, I think it's a great testimony that there is 
life after.
    So, again, thank you very much, Mr. Chairman.
    Mr. Souder. I thank all of you. And thank you not only for 
coming today, but for your work that has to be frustrating on a 
day-to-day basis, include working in all the drug treatment 
programs for so long with so many people. It's very important 
work. And I thank you.
    Thank you very much. With that, the subcommittee stands 
adjourned.
    [Whereupon, at 1:43 p.m., the subcommittee was adjourned.]
    [Additional information submitted for the hearing record 
follows:]

[GRAPHIC] [TIFF OMITTED] T7398.139

[GRAPHIC] [TIFF OMITTED] T7398.140

[GRAPHIC] [TIFF OMITTED] T7398.141

[GRAPHIC] [TIFF OMITTED] T7398.142

[GRAPHIC] [TIFF OMITTED] T7398.143

[GRAPHIC] [TIFF OMITTED] T7398.144

[GRAPHIC] [TIFF OMITTED] T7398.145

[GRAPHIC] [TIFF OMITTED] T7398.146

[GRAPHIC] [TIFF OMITTED] T7398.147

[GRAPHIC] [TIFF OMITTED] T7398.148

[GRAPHIC] [TIFF OMITTED] T7398.149

[GRAPHIC] [TIFF OMITTED] T7398.150

[GRAPHIC] [TIFF OMITTED] T7398.151

[GRAPHIC] [TIFF OMITTED] T7398.152

[GRAPHIC] [TIFF OMITTED] T7398.153

[GRAPHIC] [TIFF OMITTED] T7398.154

[GRAPHIC] [TIFF OMITTED] T7398.155

[GRAPHIC] [TIFF OMITTED] T7398.156

[GRAPHIC] [TIFF OMITTED] T7398.157

[GRAPHIC] [TIFF OMITTED] T7398.158

[GRAPHIC] [TIFF OMITTED] T7398.159

[GRAPHIC] [TIFF OMITTED] T7398.160

[GRAPHIC] [TIFF OMITTED] T7398.161

[GRAPHIC] [TIFF OMITTED] T7398.162

[GRAPHIC] [TIFF OMITTED] T7398.163

[GRAPHIC] [TIFF OMITTED] T7398.164

[GRAPHIC] [TIFF OMITTED] T7398.165

                                 <all>

</pre></body></html>
